<html>
<title> - [H.A.S.C. No. 111-23]THE STATUS OF U.S. STRATEGIC FORCES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


                                     

                         [H.A.S.C. No. 111-23]
 
                  THE STATUS OF U.S. STRATEGIC FORCES

                               __________

                                HEARING

                               BEFORE THE

                     STRATEGIC FORCES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 17, 2009

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     


                  U.S. GOVERNMENT PRINTING OFFICE
51-759                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     STRATEGIC FORCES SUBCOMMITTEE

                ELLEN O. TAUSCHER, California, Chairman
JOHN SPRATT, South Carolina          MICHAEL TURNER, Ohio
LORETTA SANCHEZ, California          HOWARD P. ``BUCK'' McKEON, 
ROBERT ANDREWS, New Jersey               California
JAMES R. LANGEVIN, Rhode Island      MAC THORNBERRY, Texas
RICK LARSEN, Washington              TRENT FRANKS, Arizona
MARTIN HEINRICH, New Mexico          DOUG LAMBORN, Colorado
                 Rudy Barnes, Professional Staff Member
                 Kari Bingen, Professional Staff Member
                      Zach Steacy, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Tuesday, March 17, 2009, The Status of U.S. Strategic Forces.....     1

Appendix:

Tuesday, March 17, 2009..........................................    31
                              ----------                              

                        TUESDAY, MARCH 17, 2009
                  THE STATUS OF U.S. STRATEGIC FORCES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Tauscher, Hon. Ellen O., a Representative from California, 
  Chairman, Strategic Forces Subcommittee........................     1
Turner, Hon. Michael, a Representative from Ohio, Ranking Member, 
  Strategic Forces Subcommittee..................................     2

                               WITNESSES

Chilton, Gen. Kevin P., USAF, Commander, U.S. Strategic Command..     4

                                APPENDIX

Prepared Statements:

    Chilton, Gen. Kevin P........................................    35

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Ms. Tauscher.................................................    55
                  THE STATUS OF U.S. STRATEGIC FORCES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                             Strategic Forces Subcommittee,
                           Washington, DC, Tuesday, March 17, 2009.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2118, Rayburn House Office Building, Hon. Ellen Tauscher 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ELLEN O. TAUSCHER, A REPRESENTATIVE 
    FROM CALIFORNIA, CHAIRMAN, STRATEGIC FORCES SUBCOMMITTEE

    Ms. Tauscher. Good morning. Happy St. Patrick's Day. And 
happy birthday to General Chilton's father.
    General Chilton. Thank you.
    Ms. Tauscher. This is a hearing of the Strategic Forces 
Subcommittee, and the hearing will come to order.
    The purpose of today's hearing is to examine the strategic 
posture of the United States and the status of our strategic 
forces, including our nuclear weapons program, missile defense 
systems, and military space programs.
    The Strategic Forces Subcommittee has jurisdiction over 
each of these areas, which track closely with the 
responsibilities of the U.S. Strategic Command, or STRATCOM.
    I want to welcome General Kevin Chilton, Commander of 
STRATCOM. General Chilton has testified before us before. And I 
want to thank you for coming back.
    I want to thank you for the thousands of men and women that 
report to you, and the people behind you, who I know are 
directly responsible for your day-to-day activities. And we 
work with them very closely, as you know, and we very much 
appreciate their service and, always, their ability to work 
with us.
    General Chilton. Thank you, Madam Chair.
    Ms. Tauscher. There is plenty for us to discuss today, 
given the many challenges we face with Russia, North Korea and 
Iran, and whether we will rework the Moscow Treaty, and a 
Comprehensive Test Ban Treaty (CTBT).
    The challenges we face are complicated, and the world we 
operate in is dangerous, with rogue states and terrorists vying 
to get nuclear weapons. We know that our work here is critical 
to make the world a safer place and to rid the world of these 
horrible weapons.
    In the debate over nuclear posture, there is an emerging 
bipartisan consensus. Two years ago, former Defense Secretary 
Bill Perry, former Secretaries of State Henry Kissinger and 
George Shultz, and former Senator Sam Nunn, called for the 
United States to move toward a world free of nuclear weapons. 
President Obama has echoed this call, as well.
    But even as we debate the feasibility of such a policy, we 
still face the ongoing challenge to be good stewards of our 
nuclear deterrent without undermining critical nonproliferation 
efforts.
    These challenges highlight the urgent need for a robust 
discussion of the United States' strategic posture.
    This subcommittee has acted to enable just such a 
discussion by establishing a bipartisan commission in the 
fiscal year 2008 National Defense Authorization Act (NDAA), to 
examine U.S. strategic posture and recommend a 21st century 
nuclear weapons policy.
    Under the capable leadership of Bill Perry and former 
Defense Secretary Jim Schlesinger, the commission submitted an 
excellent interim report in December, and they will deliver 
their final report on April 1st. Drs. Perry and Schlesinger 
will also testify before our full committee on April 2nd.
    General Chilton, since your testimony last year, the 
Congress has continued to have a vigorous discussion over the 
United States' ballistic missile defense (BMD) systems and 
policy. As chair of this subcommittee, I have argued that our 
primary focus should be on countering the most imminent, here-
and-now threat to our deployed troops and our allies: short- 
and medium-range missiles.
    This subcommittee also has oversight over our military 
space programs. There is no shortage of challenges here either. 
A year ago, we witnessed the United States' successful 
intercept of a failed satellite that could have re-entered the 
atmosphere in an uncontrolled way, threatening populated areas 
with hydrazine fuel.
    Last month, an Iridium satellite and an old Russian Cosmos 
satellite collided in outer space. The debris created from the 
collision will be a problem for decades. The collision 
underscores the urgent need for a better Space Situational 
Awareness (SSA) capability.
    The United States has a host of pressing strategic and 
policy challenges, all of them interconnected. In this hearing, 
we hope to continue a critical discussion, so that we may, 
together, chart the right strategic path forward for the United 
States.
    Now, let me turn to my distinguished Ranking Member, Mr. 
Turner of Ohio, for any comments he may have.
    Mr. Turner, the floor is yours.

 STATEMENT OF HON. MICHAEL TURNER, A REPRESENTATIVE FROM OHIO, 
         RANKING MEMBER, STRATEGIC FORCES SUBCOMMITTEE

    Mr. Turner. Thank you, Madam Chair.
    I also want to extend a warm welcome to General Chilton, 
and thank you for your vision, leadership, and service to our 
Nation.
    General, your testimony today on the status of our Nation's 
strategic forces provides us with valuable context and insight 
as we begin deliberations in the fiscal year 2010 defense 
budget.
    Now, General, you and I were just talking a moment ago 
about, these are the hot topics that are facing our Nation and 
our international scene. And it comes at a time where there are 
discouraging trends in foreign strategic forces developments, 
highlighted by last month's Iranian space launch and the 
impending potential North Korean missile launch.
    Some have questioned the relevance and credibility of 
strategic deterrence in today's complex and uncertain security 
environment. It has also been questioned whether, in these 
times of global economic crisis and potential tighter defense 
budgets, we should sustain our current strategic capabilities 
or invest in their modernization.
    Recently, Mr. McHugh, my colleague and House Armed Services 
Committee Ranking Member, observed, ``Strategic deterrence may 
be exactly what will be required to bolster our allies and 
friends. A weakened global economy is unlikely to lead 
competitors and adversaries to decrease their strategic 
capability, as some may hope. In fact, it can be argued that 
the opposite is more plausible. Faced with fiscal constraints, 
will Iran double down on its ballistic missile program? The 
question merits our most careful consideration.''
    I am also interested in whether or not you share this view.
    There are a number of significant events this year on the 
future of our nuclear policy and posture. As our chair has 
noted, the subcommittee looks forward to receiving the U.S. 
strategic commission's final report.
    While some have urged the Nation to work toward the global 
elimination of nuclear weapons--an admirable goal--the 
commission's bipartisan interim report urged caution. ``It is 
clear that the goal of zero nuclear weapons is extremely 
difficult to attain, and would require a fundamental 
transformation of the world political order.''
    The new Administration and Congress may consider treaty 
ratification and further stockpile reductions. But the 
commission warned that before such decisions are made, ``the 
DOE and DOD should receive from the labs and STRATCOM clear 
statements describing the future capabilities and flexibility 
required to minimize the risks of maintaining a credible, safe, 
and reliable nuclear deterrent without nuclear explosive 
testing.''
    What military advice would you give policymakers 
considering such decisions?
    In your testimony, you comment that the U.S. stockpile 
requires the most urgent attention, and that without action, 
our current weapons are not indefinitely sustainable. I do not 
know that others share your same sense of urgency.
    Has the military begun to accept risk as a result of the 
aging stockpile? And how much risk are we willing to accept?
    To address these risks, you supported the Reliable 
Replacement Warhead (RRW) cost and design study last year. Does 
this concept still have merit?
    Later this year, we also expect a new Nuclear Posture 
Review (NPR). I am concerned that unless the NPR makes concrete 
decisions on nuclear force structure, size and composition, we 
may be further delayed in taking action to address the risks in 
our current stockpile.
    Today, we will ask what key issues you believe the NPR must 
address.
    Missile defense will also be a challenging topic this year, 
especially if reports of potential budget cuts prove true. We 
would benefit from your discussion of the missile defense needs 
and priorities from the warfighter's perspective, particularly 
if there are potential gaps and vulnerabilities in our spectrum 
of defense.
    Though our committee, in a bipartisan manner, has 
emphasized near-term missile defenses--Ground-based Midcourse 
Defense (GMD), Aegis, Terminal High Altitude Area Defense 
(THAAD), Patriot, and sensors--we also have to figure out a way 
to preserve investments in future capabilities. I would 
appreciate your thoughts on what future capabilities are most 
promising.
    Since we will hold a hearing on space security tomorrow, I 
will hold my comments there for that hearing. And, as our 
current national space policy states, space is vital to our 
national interests. Yet recent events, such as the satellite 
collision last month and the Chinese anti-satellite (ASAT) test 
in 2007, serve as stark reminders of the vulnerability of our 
space assets.
    This committee supports the need for greater Space 
Situational Awareness and protection capabilities.
    We are also interested in how the need for greater 
survivability influences discussions and decisions about our 
space architecture and acquisition programs. What architectural 
attributes should guide our space acquisition investments? And 
what are your top priorities in space?
    Lastly, I want to touch on intelligence and solicit your 
thoughts. Intelligence on foreign nuclear, missile, space, and 
cyber developments has a great influence on our policy and 
program decisions. Yet, as I observed on this committee, I am 
always surprised by how much we do not know. Our intelligence 
analysts are tremendously talented, but we must ensure that 
they have the capabilities and resources to effectively do 
their jobs.
    Furthermore, is our military intelligence enterprise 
adequately organized and managed to address our intelligence 
gaps and shortfalls?
    Though we do not have the details of the President's budget 
request, we are fortunate to have your perspective and 
expertise.
    Today is an excellent opportunity to gain valuable insight 
from you on the military's requirements, priorities, and key 
issues. On that note, thank you again for being here today, and 
your willingness to share your assessment of our Nation's 
strategic forces.
    Thank you, Madam Chair.
    Ms. Tauscher. Mr. Turner, thank you for that excellent 
opening statement. I agree with you. Those were excellent 
questions you put forward.
    We have got your written statement, General Chilton which 
is, once again, very comprehensive and thought-provoking. And I 
am looking forward to your shortened testimony.
    General Chilton, the floor is yours.

   STATEMENT OF GEN. KEVIN P. CHILTON, USAF, COMMANDER, U.S. 
                       STRATEGIC COMMAND

    General Chilton. Thank you, Madam Chair. I have just a few 
brief remarks I have asked if I might present to the committee.
    Madam Chair, Ranking Member Turner, members of the 
subcommittee, thank you for the opportunity to testify today 
about the state of the United States Strategic Command.
    And Madam Chair, thank you for recognizing my father on his 
birthday today. James Patrick will be most pleased to know that 
his name was brought forward here in this hearing today. I send 
him my best wishes.
    Since assuming command in October of 2007, I have been 
honored by your counsel and thoughtful interest in the best 
ways to secure America's future together. Thank you for your 
time and for your staff's equally strong interest in visiting 
and learning about the command's capabilities and requirements.
    Your strong support, especially for the exceptional 
soldiers, sailors, airmen, Marines and civil servants, and 
their families, with whom I have the privilege to serve, means 
a great deal to those who already give so much in the defense 
of their Nation.
    Today, America faces unique national security challenges 
and equally unique leadership opportunities. These challenges 
include global population changes, serious economic 
difficulties, resource competition, bids for regional and 
global power, the threat of proliferation of weapons of mass 
destruction (WMD), and an era of persistent and often irregular 
warfare, coupled with an exceptional rate of technological 
change that often outpaces capabilities and policies.
    These challenges make 2009 an especially noteworthy year, 
as we look forward to the report of the Congressional 
Commission on the Strategic Posture of the United States, and 
prepare to conduct both the Quadrennial Defense Review (QDR) 
and a Nuclear Posture Review within the Department. The 
recommendations made in these studies will shape our national 
security capabilities long into the future.
    As the combatant command chartered with the global 
operational perspective, our responsibilities and relationships 
uniquely position STRATCOM to execute global operations, to 
support other combatant commands and to close potential seams 
between other combatant commands as well, and provide a clear 
and consolidated warfighter position on future global 
capability requirements.
    I am pleased to tell you that the United States Strategic 
Command capably executes deterrence, space and cyberspace 
operations each and every day, and provides a unique global 
perspective in advocating for missile defense, information 
operations (IO), intelligence, surveillance, and reconnaissance 
(ISR) capabilities, and the capabilities that this country 
needs to combat weapons of mass destruction. Ultimately, we are 
about enabling global security for America.
    Today, deterrence remains as central to America's national 
security as it was during the Cold War, because, as ever, we 
would prefer to prevent war rather than to wage it.
    Last year, the Secretary of Defense approved our strategic 
deterrence plan, a significant first step toward integrating 
deterrence activities across the U.S. Government.
    Still, credible deterrence rests first on a safe, secure, 
reliable, and sustainable nuclear enterprise, including our 
stockpile of weapons; including our delivery, command and 
control (C2) and ISR platforms; including our space-based 
capabilities, and our laboratories and industrial base; and on 
our most precious resource, our people.
    Since the end of the Cold War, the U.S. has substantially 
reduced our deployed nuclear weapons, dismantled our production 
capability, and ceased nuclear testing.
    Despite our reductions and lack of modernization of weapons 
and infrastructures, other states still seek nuclear weapons 
today.
    Additionally, many of our allies rely on the U.S. nuclear 
deterrent umbrella. This reliance must be considered when 
addressing concerns of nuclear proliferation.
    The most urgent concerns for today's nuclear enterprise lie 
with our aging stockpile, infrastructure, and human capital. 
2009 will be an important year to act on these issues, to 
relieve growing uncertainty about the stockpile's future 
reliability and sustainability.
    Space-based capabilities provide our Nation and our forces 
essential, but often unnoticed, abilities to act and operate. 
The satellite constellations that carry these capabilities, 
however, require more careful attention to eliminate delays 
that can leave us just one launch failure away from 
unacceptable gaps in coverage in the future.
    We have made progress in Space Situational Awareness. But 
capability gaps remain and require sustained momentum to fill, 
as evidenced by the recent collision between an active 
communications satellite and a dead Russian satellite.
    Cyberspace, another one of our key lines of operations, has 
emerged as a key warfighting domain, and one on which all other 
warfighting domains depend. We remain concerned about growing 
threats in cyberspace, and are pressing changes in the 
Department's fundamental network culture, conduct, and 
capabilities to address this mission area.
    We also endeavor to share our best practices with partners 
across the government. Still, the adequate provisioning of the 
cyber mission, especially with manpower, remains our greatest 
need.
    Finally, the command's advocacy efforts for missile defense 
capabilities, ISR management, information operations, and plans 
to combat weapons of mass destruction continue to mature, and 
positively influence the acquisition process within the 
Department. And STRATCOM is proud of our role in that process, 
and our ability to represent the needs of other combatant 
commanders in each of these areas.
    In this uncertain world, your support is critical to 
enabling successful execution across the command's assigned 
missions and realizing our vision to be leaders in strategic 
deterrence, and preeminent global warfighters in space and 
cyberspace.
    Madam Chair, thank you again for this opportunity, for the 
committee's providing me this opportunity, and for your 
support. And I look forward to your questions. Thank you very 
much.
    [The prepared statement of General Chilton can be found in 
the Appendix on page 35.]
    Ms. Tauscher. Thank you, General Chilton.
    I wanted to elicit a broader response from you about 
something that I saw in your statement that I think we 
certainly agree on. The Congressional Strategic Posture 
Commission has made it clear that the science-based Stockpile 
Stewardship Program (SSP) has been a remarkable success.
    And I think that that has accrued to the American people 
not only fabulous investments in the fastest computers in the 
world, the largest laser in the world--all used to simulate the 
testing that we used to do in the Nevada desert--but, at the 
same time, we obviously have kept and maintained a large number 
of hedge weapons.
    In your statement, you say that we mitigate the risk of 
unanticipated technical challenges--which is a nice way of 
saying a bad piece of information--that the way we do that is 
only by maintaining more weapons than we would need otherwise.
    And, not to edit your statement, but I think you agree 
that, fundamentally, the Stockpile Stewardship Program, in and 
of itself, is the real way that we--the science-based program 
is the real way that we mitigate. The secondary way is by 
keeping the number of hedge weapons that we do.
    Can you talk a little bit about your assessment of the 
science-based Stockpile Stewardship Program and its importance? 
And how do we potentially leverage that in the future?
    General Chilton. Sure. Thank you, Madam Chair.
    A couple of points, though, first on the hedging, just to 
be clear on that, what I mean by that. I think there are two 
areas that we retain the stockpile of non-deployed weapons at 
the levels that we do today.
    One is for a technical challenge that might surprise us. 
For example, to find out a particular family of weapons has an 
inherent problem that we can anticipate runs throughout the 
family, and that they are no longer available as part of the 
deterrent. Having an excess number of weapons on the shelf that 
could be rapidly uploaded to other platforms to sustain the 
level of deployed weapons that we would need for today's policy 
and strategy is part of that hedge. And the reason we need 
those on the shelf today is because we have no production 
capacity.
    In the Cold War, we hedged by having a large production 
capacity in that area. And we also benefited from the ability 
to test, to help resolve problems. Although that was not used 
all that often, it was still a capability.
    The second reason for a hedge would be to be in a position 
to address strategic uncertainty. So, a sudden change in the 
geopolitical environment of the world, where political 
leadership in our country should determine that there is a need 
to increase the posture of our deployed forces. Again, without 
a production capacity, the hedge is to retain a large inventory 
on the shelf.
    The Stockpile Stewardship Program has certainly been an 
important program over the last--was it 17 years now that it 
has been in place--since 1992. It is a program that I think, 
had we not started, I think we would have lost confidence in 
some weapons along the way. But because of the focus of the 
team and the support of that team, and their ability to delve 
into issues, discover them early and help us work solutions 
along the way, that has been quite helpful.
    So, I am a strong advocate for maintaining robust support 
for the Stockpile Stewardship Program. However, I do not think 
that is the sole solution in front of us. I think we also need 
to look at modernization of our industrial base. We need to be 
able to produce the key elements and, ultimately, nuclear 
weapons. And I think if we do that, if we have that capability, 
it will lead to an ability to reduce inventories, which is a 
desire of all in this business.
    Thank you.
    Ms. Tauscher. Three years ago, we reestablished the ability 
to produce pits, which is certainly part of the production 
chain. And so, it is not completely true that we do not have a 
production facility. We do not have an end-to-end production 
facility.
    But clearly, where would you rank--I mean, clearly, we were 
told that, if we could reproduce pits, that we were solving a 
very big question mark in the future as to our sustainability 
of the current stockpile.
    We obviously have a number of opportunities going forward 
to modernize a smaller arsenal, including something called 
Advanced Certification, which could effectively replace what 
was then--what used to be called RRW--in a way that we are, I 
think, being more responsible in the way that we are putting 
forward what we are doing.
    My concern about RRW always was that it led people to 
believe that we were building new weapons. I do not think we 
want anybody to believe that. But I think we all believe that 
having a smaller stockpile, that is, where we have extreme 
confidence and reliability, where we also can do more security 
and create a sense that we had surety and more environmental 
soundness, is a goal, as long as we are reducing the stockpile 
and eliminating weapons at the same time.
    So, can you talk briefly about the production of pits and 
where that fits into this area of production and the value that 
you consider it to have?
    General Chilton. Sure.
    A couple points. The ability to produce a nuclear weapon 
requires plutonium production capacity and uranium production 
capacity.
    So, there are two key elements of the infrastructure that I 
think need to be supported. One is the development or expansion 
of the plutonium and modernization of plutonium capabilities at 
Los Alamos. And then the uranium capabilities at Oak Ridge. 
They are Cold War--they are not even that--they are World War 
II era facilities.
    Production--I would not use the word production capability 
at Los Alamos, it is a laboratory. And they can make about 10 
to 20 pits per year. And that is not on the scale of a 
production capacity, in my view. And so, I think that needs to 
be robusted for both of those facilities, for sure.
    I agree with you. We do not need a new nuclear weapon with 
new capabilities. But I do believe we have a great opportunity 
here to develop modern nuclear weapons, modernized, that have 
21st century requirements put into their design. And the 
requirements of the Cold War era were maximum nuclear yield and 
minimum size. That, because we had small missiles, and we 
wanted to maximize the number of warheads we could put on top 
of them vis-a-vis the Russians. We were not worried about the 
Russians stealing our weapons. They had plenty of their own.
    If we look forward to the 21st century, we do worry about 
terrorists getting their hands on our weapons. And in an 
environment where we have reduced and probably never will grow 
a production capacity anywhere near that we had in the Cold 
War--we could produce close to 3,000 weapons a year. And, the 
desire that we have to step away from testing, that we have 
unilaterally, or, you know, self-imposed, not conducted since 
1992--putting those together.
    The number one design requirement, I think, as you look to 
the future, is high reliability. And we have the opportunity to 
add in a modernized weapon, safety and security features that 
we never envisioned that we would have or were a part of the 
original designs, in some of the weapons during the Cold War.
    So, moving forward with a modern capability not only 
provides those opportunities of high reliability, increased 
safety and security, which then would immediately relate into a 
confidence that could help you lower the total stockpile.
    They do another important thing and that is, by 
reenergizing the design, science, engineering, and production 
capability, you reenergize and maintain the human capital 
element that is also aging. And you attract a youth and energy 
into the programs that will make sure that 20 years, 40 years 
from now, America will still have the preeminent knowledge and 
know-how on how to maintain a safe, secure stockpile and 
provide this deterrent for America.
    Ms. Tauscher. General Chilton, you have articulated 
something that I have been interested in for quite a long time. 
And I think the context--I call them ``the fences.''
    As long as ``the fences'' include no testing, no new 
capabilities for the weapons, in the sense that you are not 
increasing yields, you are not making the weapon more robust in 
the sense that it is now a bigger weapon, and that it is all 
done in the context of ratifying Comprehensive Test Ban Treaty, 
and taking down weapons and dismantling them, hopefully in a 
cooperative agreement with the Russians and others.
    You know, I think that that is really the kind of policy 
that can be reviewed in a very interesting way over the next 
few years. I think that we have a better sense now for where 
``the fences'' need to be, and for what the goals need to be, 
including, you know, taking down the weapons and making sure 
that, as we create a weapon that is modern, as you say, that we 
are also taking away the hedge weapons and satisfying ourselves 
that what we have is modern and sustainable and safer and more 
secure.
    So I think that those are very good words to use, and I 
really appreciate it.
    Mr. Turner, the floor is yours.
    Mr. Turner. Thank you, Madam Chair.
    General, the Reliable Replacement Warhead has been 
mentioned, and you have previously been before this committee, 
where you have discussed that proposal. And in reading your 
testimony that you have given us this time, you call for, ``In 
other words, we need a concerted effort to assuage growing 
uncertainty and ensure a more reliable, safer, more secure and 
sustainable long-term nuclear deterrent.'' And you say, in your 
opinion, emphasizing what you have just said to us, ``a 
stockpile modernization strategy and nonproliferation efforts 
should be considered complementary, not mutually exclusive, 
means to a safer world.'' ``Modernization could provide,'' as 
you said, ``a unique opportunity to introduce enhanced safety 
and security features that would render our weapons undesirable 
terrorist targets.''
    And, going on, you say, maintaining a robust nuclear 
deterrent is important for nonproliferation. And then you say, 
``We should also consider using sustainable designs, employing 
less-exotic and better understood materials, restoring a 
responsive infrastructure, and introducing increased weapon 
reliability and key safety and security measures as ways to 
further increase our confidence in our arsenal over time.''
    Now, I am not going to ask you to advocate for the RRW. But 
I am going to ask you, if you would, please provide me with 
some understanding of, what would be the difference from what 
you are asking for and what RRW is? We are looking to a policy 
focus of--if we are not going to go do that, we are going to go 
do something else that responds to these, what really are those 
differences?
    General Chilton. Well, sir, last year the program of record 
on the table to address the modernization issues was the RRW 
program. And there were difficulties with getting that accepted 
in the debate, I think primarily because there was not a, 
probably a new look at our policy. That was the argument. And 
we needed to first look at our nuclear policy before we moved 
forward in this area.
    So, a couple of things are happening this year. And this is 
why I think 2009 is such a great year.
    One, we have been talking about this issue for the last 
year-and-a-half. And I think that has really been important 
part of enlightening the debate and bringing this forward, so 
that we are postured now to go forward as a policy review goes 
on in the Nuclear Policy Review of the new Administration and 
the Department of Defense (DOD).
    Not only that, we will have a Quadrennial Defense Review, 
which those two will be very linked, in my view, because that 
typically will focus more on the delivery platforms, whereas 
the Nuclear Policy Review will look more toward the nuclear 
part of the deterrent.
    The fundamental points that I made last year in supporting 
RRW apply to the fundamental points that you still see in my 
posture statement today. They are describing a capability that 
we need of increased reliability, increased security, and 
increased safety in a modern weapon, not desiring a new--any 
new capabilities beyond that.
    Does that answer your question?
    Mr. Turner. Yes. Thank you.
    General, our Chair did an excellent job in asking, and you 
did an excellent job in responding to the issue about the 
current balance of our stockpiles and our Stockpile Stewardship 
Program. Recognizing that there are calls for reductions in our 
stockpiles, what do you think, or what would you believe is 
essential that we have to accomplish before we could safely do 
that?
    General Chilton. Well, first of all, you start with--I 
think it all starts with a Nuclear Policy Review, and a policy 
and a strategy. Now, because there could be--not necessarily, 
but there could be--changes in policy and strategy that would 
lead to reduced requirements for weapons. That is one point.
    It could lead to a reduced--or an increased requirements 
for weapons, as well.
    Then on top of that, as we looked--as we looked 
specifically at the hedge weapons that I talked about before, 
that are both hedging for technical and strategic uncertainty.
    Remember, the way we hedged for strategic uncertainty in 
the past was having a production capability. That could be part 
of the solution, to reduce inventories.
    The other way we could hedge for reduction in technical 
surprise is to have more robust design and, again, a production 
capability.
    So, these things are kind of linked in my mind, as we 
looked at our--what we retain on the shelf, independent of our 
deployed forces. And so, that is why I think it is really 
important that we address the industrial base issues and the 
modernizations issues for the stockpile, as well as the 
stewardship program.
    And if I could just add one point. It is kind of on what 
you mentioned in your first question about nonproliferation. I 
see there is a linkage here in two ways. One, if some measure 
U.S. seriousness in nonproliferation by the total inventory of 
our weapons. And so, following a strategy of improving the 
industrial base and modernizing the weapons, that would allow 
you to reduce the amount of hedge weapons you have. It could be 
in line with that, and supporting of that position.
    Additionally, when we think about the reliability of our 
weapons in our inventory, there is a key linkage, I believe, to 
our allies, friends and allies, who rely on the nuclear 
umbrella provided by the United States of America. And their 
trust and confidence in the reliability of that umbrella, 
certainly, I think, links--has a linkage into--proliferation or 
nonproliferation concerns in the debate. And that needs to be 
considered as we look at this in the policy reviews this year.
    Mr. Turner. And then, for my last question, turning to 
missile defense. There is going to be a significant amount of 
budgetary pressures as we move forward. What are some of the 
priorities that you would like us to emphasize as we look to 
missile defense?
    And then also, if you could comment on testing. As you view 
testing that has occurred to-date, and future testing that the 
Missile Defense Agency (MDA) plans, what are your thoughts and 
views there?
    General Chilton. First on priorities. I think where we come 
down in STRATCOM is that there needs to be a balance in 
priorities. I mean, we developed the missile defense system for 
really two fundamental reasons. One was for protection of the 
United States of America. And the other was for protection of 
our deployed forces forward.
    And so, when we look at how we balance the investments in 
this area, or look at the capability gaps in these areas, we 
always have--it cannot be an either/or in my view, but there 
has to be a balance as we go forward.
    And I think the discussions we have had internally with 
regard to how we prioritize, the way MDA has laid out their 
five-block approach to fielding, I think has been very 
instructional to us as we look to shift, or not shift, funding 
in various areas to support those priorities.
    So, it is important that we continue to focus on both, in 
my view.
    With regard to testing, looking in the rearview mirror, I 
would say, I do not know of a better way, or how we could have 
done a better job of fielding, as quickly as we did, the 
missile defense systems that we have in place today.
    When you look at any other acquisition program in the 
history--recent history, and that would not even go back 20 or 
30 years--it is hard to envision getting a new, a single new 
airplane on the ramp in less than 11 years from the start of a 
program. And yet, in the missile defense area, if you look at 
the advances we have made, both for the theater defenses and 
Standard Missile-3 (SM-3), and Aegis, and THAAD and in the 
defense of the homeland with the ground based interceptor (GBI) 
system, global Ballistic Missile Defense System (BMDS), it 
really has been impressive in the fielding of these systems.
    But there has been some risk taken on in that, and some--to 
be fast. And that has been certainly in the testing area.
    Now, as we look forward, I have reviewed and met with 
General O'Reilly about where he wants to take the Missile 
Defense Agency in the future with regard to testing. And I 
think he is on the right path for increasing our confidence in 
these systems as we go forward. I think the path will help 
improve the models that are important to MDA.
    I think they will find budgetary savings in the approach he 
is going to take from a holistic perspective for acquiring 
targets, for example, and centralizing a little bit of the 
testing more in the Missile Defense Agency.
    So, I am very optimistic of the path that he is charting 
right now.
    Mr. Turner. Thank you, Madam Chair.
    Ms. Tauscher. Thank you, Mr. Turner.
    The gentlewoman from California, Ms. Sanchez, is recognized 
for five minutes.
    Ms. Sanchez. I thank the chairwoman.
    General, first of all, thank you again for being before us.
    My question has to do with the Warfighter Involvement 
Program (WIP), and the Priorities Capabilities List (PCL).
    It is my understanding that the WIP and the PCL were 
developed to take warfighter views into account during the 
missile defense development process, and to identify the 
warfighters' longer term missile defense developmental 
priorities. So, my question is, how does STRATCOM identify, 
prioritize, and address combatant command priorities? And has 
it developed an assessment tool that can effectively identify 
the most urgent priorities?
    General Chilton. Thank you, ma'am.
    We have a process that we use, not only for missile 
defense, but for all of our other areas that we are asked to 
advocate for, for all of the regional combatant commanders 
around the world. We call it our Senior Warfighter Forum, 
SWARF.
    And my deputy commander, Vice Admiral Mauney, chairs the 
SWARFs for these areas. And what we try to do in these areas is 
collect from the regional combatant commanders their 
requirements. And one would be in the missile defense area for 
sure. And so, this is a way that we inject those requirements 
into discussions that are then had when budgetary decisions are 
made later on.
    Part of the requirements' development and prioritization 
efforts is the PCL, the Prioritized Capabilities List. And 
there is a dialogue that goes on after we have developed a 
Prioritized Capabilities List through conversations with the 
regionals--to include Northern Command (NORTHCOM), of course, 
who is a regional, but in defense of the homeland--to present 
the Prioritized Capabilities List to the Missile Defense 
Agency, who then returns back to us what they think is 
technically achievable within technology, and also budgetary 
constraints.
    So there is that, I think a healthy dialogue of 
unconstrained wants with fiscal and technical realities that 
merge and then are presented, and decisions are made forward on 
which way to go forward in the program.
    Ms. Sanchez. Is this a continuous process? Or is it done 
once a year? Or how do you----
    General Chilton. Well, we stay in continuous dialogue. But 
the SWARFs do happen on a scheduled basis, so they are 
periodic.
    And ultimately, what you are working toward, of course, is 
in synch with the budget cycle----
    Ms. Sanchez. Right.
    General Chilton [continuing]. In support of the program 
objective memorandum (POM) process.
    Ms. Sanchez. Okay. And then my second question. Not only do 
I sit on this committee, but I also sit on the Homeland 
Committee. And one of the subcommittees would be the Cyber 
Security Subcommittee, which, of course, is--we are placing a 
lot more attention on, because it is a big gap.
    And my question would be, what do you think is the greatest 
cyber security threat facing the United States? Do you think--
do you think we are more vulnerable to cyber attacks on 
commercial or public infrastructure, or attacks on military 
cyber assets? What type of action is STRATCOM taking to deter? 
Whatever you can talk about here in an open forum.
    And what were the lessons learned from 2008, when computer 
hackers from China hacked in to penetrate the information 
systems of the U.S.? And what do you need to better protect our 
country's information systems from these types of hackers?
    General Chilton. Your first question on the threat, ma'am, 
I am worried about all the threats.
    And the threats, when we think about them, they kind of 
span from what I will call the bored teenager, which was, 
really, kind of maybe the first threats we started seeing in 
the hacker world, back in the 1990s, through, obviously, much 
more sophisticated threats that we are seeing criminal activity 
out there, all the way up to threats that could be sponsored by 
high-end and even nation-states that could potentially threaten 
not only our military networks, but also our critical national 
networks.
    Are we vulnerable today across the spectrum? I would say 
``yes.'' And does more work need to be done in defending our 
networks? I would say ``yes,'' as well.
    Of course, at U.S. Strategic Command, what we have been 
asked to do by the President through the Unified Command Plan 
(UCP), is to operate and defend in the military networks only, 
and be prepared to attack in cyberspace when directed.
    But, day in and day out, our focus is on operating and 
defending our networks. And that takes a close relationship 
with the Intelligence Community.
    We rely tremendously on support from the Intelligence 
Community writ large and, particularly, on the National 
Security Agency (NSA), because they can give us a lot of threat 
warning. They have an information assurance role and mission. 
And that marriage and the support that we receive from them has 
been instrumental in our efforts to operate and, particularly, 
to defend our networks.
    We learn every day through various attempts to penetrate 
our networks--some which are successful, and many, many, many 
more which are unsuccessful--but we do learn from those and 
roll those lessons back in to.
    What we need in this area, I believe, for U.S. Strategic 
Command is--well, and let me talk about the military, writ 
large.
    Three things have been our focus area.
    A changing culture, first of all. We need to start thinking 
about cyberspace and our utility of it, not so much as a 
convenience, but as a military necessity, because every domain, 
whether it is air, land, or sea, depends on cyberspace for 
their operations.
    And I am not sure we have made that mental shift yet from 
these systems that really just grew up on our desks and are 
conveniences to us, to something that we need to protect. So, 
changing that culture is really important and, perhaps, the 
hardest thing to do.
    The next thing we need to do, I believe, is change our 
conduct. And our conduct--by that I mean, defense and operation 
of our military networks is commanders' business. It is not 
some computer assistant's business. The security and the 
awareness of the security is our commanders' business. And 
commanders need to hold their--to train their people on 
security. And then they need to hold them accountable. They 
need to have robust inspection programs in cyberspace systems.
    So when an inspection team arrives at my base to inspect my 
fighter wing, they not only look at my fighters and my 
maintenance, but they look at my cyber systems. And, if I put 
all the defenses in that STRATCOM has told me to put in, are 
they operating properly? Am I positioned and worried about the 
defense of that network? That is a change in our conduct today.
    And then, lastly, we need to improve our capabilities. And 
that is in two particular areas, I would say. First, people; we 
have not resourced this mission area, in my view, correctly 
from a manpower perspective. We have made improvements in our 
schoolhouses, and the Secretary of Defense has given great 
support to increasing the throughput in our educational 
programs through our cyber schoolhouses. But we have not 
realized that increase in people capability.
    And the second part is in technology. Too much today, we 
rely on still picking up the phone and passing information. And 
I think we can do better in some machine-to-machine capability, 
so that we can start anticipating and reacting to threats at 
network speed, as opposed to at human speed.
    And so, some key investments in technologies are going to 
be very important to us, I think, as we try to advance the ball 
here in the military defense of our networks.
    Ms. Sanchez. Thank you, Madam Chair.
    And I would just like to say that I do not believe that 
this subcommittee has really maybe had a classified hearing on 
this particular area. It is a big area of concern and interest 
for me. And I might ask that we might do that at some point.
    Ms. Tauscher. I am happy to do that. We have shared 
responsibility with the Terrorism Subcommittee for this very 
widening area of cyber security. And our plan is to have a 
joint hearing with ourselves and Congressman Smith's 
subcommittee. And we will do that as soon as we can get it on 
the calendar.
    Thank you, Ms. Sanchez.
    Now, I am happy to recognize the gentleman from Arizona, 
Mr. Franks, for five minutes.
    Mr. Franks. Well, thank you, Madam Chair.
    And, General, thank you for being here.
    I am fully aware that the Air Force does not casually pin 
four stars on just anyone. But I want you to know I am glad 
they chose you to head STRATCOM. I think my own little babies 
have a better hope for walking in freedom, because they did 
that. And I am grateful for all that you do, and for all the 
sacrifice you have made for human freedom.
    I also have noticed that most of the time when we--
preceding some of the questions here--we quote your testimony. 
I think sometimes, generals get more of their own words spoken 
back to them, more than politicians, even.
    So, I am going to begin by quoting your testimony.
    You said in your testimony that, related to missile 
defenses, that they ``provide a critical deterrent against 
certain existing and potential threats, increase the cost of 
adversaries' already expensive technologies and reduce the 
value of their investments.''
    And I believe, General, that that is a critically important 
point. Oftentimes, when we speak of missile defense, we think 
just of defending ourselves against missiles, rather than 
devaluing entire programs, to the extent that, hopefully, rogue 
states will not be able to gain technology that they can pass 
along to terrorists, which remains a great concern to me. And I 
think it is more short term than we realize.
    But the committee has been working through this issue, and 
I wonder if you could help us understand, or just explain it to 
us, how missile defense systems deter potential threats and 
devalue our adversaries' offensive investments.
    General Chilton. Thank you, Congressman.
    I think they do it in two ways. And I will even step back 
further and look at strategic--or deterrence in a broader 
sense. And going back to the Cold War, we felt--I think the 
United States felt--we had a pretty good handle on what it took 
to deter the Soviet Union. And likewise, the Soviet Union felt 
they had a good handle on what it took to deter the United 
States of America.
    Today, in the 21st century, besides the complexities that 
we have talked about already, it is a much more complex 
geopolitical environment that we live in. And there is not this 
bipolar threat. We are not just worrying about deterring one 
other nation-state. There are other threats to the United 
States of America that we need to consider deterring.
    And some of these potential adversaries may not be as 
deterred by the nuclear might that we have, and, in fact, may 
not be looking at us from a nuclear exchange perspective, but 
more from a blackmail perspective or a dissuasion perspective, 
where, if we were not otherwise postured, might put--
potentially put--the United States in a position of thinking 
more than twice about whether or not to engage in a 
conventional conflict in a region, because the risk would be a 
potential nuclear attack on the United States of America.
    And so, having a missile defense system that could 
essentially neuter that threat, or counter that threat, has 
become an important element of the broader deterrence 
landscape, which looks beyond just a bipolar world, but to a 
multi-polar world, and to various actors who have maybe 
different values, different fears and different objectives in 
mind that they would like to achieve.
    There is a dissuasion objective as well, by having a 
credible deterrent, a credible defense that might cause them to 
look at their investments in this area and realize that they 
can never outgun that capability, and make decisions to steer 
away from investments in things like long-range ballistic 
missiles and a nuclear weapons program, and steer those funds 
to other needs their country may have that are less threatening 
to the United States of America.
    So, there is a deterrent aspect and then, hopefully, an 
aspect, if we demonstrate our capability and it is understood 
by the potential adversary, a decision calculus that we would 
hope they would make to turn away. And that is part of the 
dissuasion piece.
    Mr. Franks. Thank you, sir.
    General, in a February 27, 2009, press release--press 
conference, excuse me--in response to a question regarding our 
nuclear missiles being on ``hair-trigger alert,'' which I 
believe was probably an unfair or unfortunate characterization, 
you said, ``The alert postures that we are in today are 
appropriate, given our strategy, guidance and policy.''
    Can you discuss our current alert posture and its 
appropriateness?
    And if I do not get to it--it looks like this will be my 
last question--thank you again for being here.
    General Chilton. Oh, thank you, sir.
    Well, you know, you actually quoted back in the correct 
context. The context of my comments were, in today's policy and 
strategy, we have our forces, I believe, on the appropriate 
alert profile.
    Mr. Franks. Would you characterize that as ``hair-trigger 
alert''?
    General Chilton. I would not. I think that is a bad 
characterization, because I just think it evokes a vision in 
the minds, at least of my generation of Americans, who grew up 
with cowboy Western shows, that hair-trigger envisions a gun 
pulled, a finger on the trigger, and better not sneeze. And our 
current alert posture is nothing like that at all.
    In fact, our current posture in our nuclear weapons are 
absolutely secure and safe, and not at risk from inadvertent 
use. And they are not at risk from not being used when so 
ordered by the President of the United States, who has control 
over those nuclear weapons.
    And so, my context of my comments were exactly as you put 
it, in today's current policy and strategy. It is not to say 
that, in the Nuclear Posture Review, as we review, that we as a 
nation may decide to look for a different policy and a 
different approach to doing things.
    But we need to do that in a deliberative fashion, work from 
policy to strategy to posturing of forces, and not in reverse, 
in my view.
    Mr. Franks. Thank you, sir.
    And thank you, Madam Chair.
    Mr. Langevin. Thank you, Madam Chair.
    General, welcome, and thank you for your testimony here 
today.
    General Chilton. Thank you, sir.
    Mr. Langevin. I apologize for having to step out. I had to 
speak on the floor. And so, if this has been covered already, 
you can let me know.
    General Chilton. I will be happy to readdress.
    Mr. Langevin. I have a particular interest and concern 
about cyber security, so I would like to turn our focus there.
    I have been involved in a number of things that have tried 
to address our Nation's cyber security efforts including, just 
recently, one of four co-chairs of the Center for Strategic and 
International Studies' Commission on Cyber Security for the 
44th Presidency, and had the opportunity to chair the 
Subcommittee on Homeland Security on Emerging Threats in Cyber 
Security last year.
    It is obviously an ever-present threat, a growing threat, 
and an ever-changing nature of the threat is very hard to stay 
ahead of it.
    My question is, listening to your remarks and reading the 
testimony on the role of STRATCOM in cyber security, I am 
certainly pleased to hear that the Department of Defense has a 
good understanding of the immense strategic global threats that 
our Nation faces. And I have had the opportunity to speak with 
General Cartwright on these issues a number of times, as well.
    As you mentioned, however, these threats spread across 
government as well as private domains.
    So my question is, can you please elaborate more on what 
you believe DOD's role should be in a government-wide approach 
to cyber security?
    General Chilton. I am sorry, sir. DOD's role?
    Mr. Langevin. DOD's role in a government-wide approach to 
cyber security. And I will stop there and----
    General Chilton. Sure.
    Mr. Langevin [continuing]. See if I can get in a second 
question.
    General Chilton. Today, Congressman, as you know, STRATCOM 
is chartered to defend, operate and defend, our military 
networks only. And so, we worry about the dot-military 
networks. We are not asked today to defend the .edu, the .com, 
the .gov. The consideration for defense of vulnerabilities in 
that area falls to the Department of Homeland Security.
    That said, we are directed to be prepared to support the 
Department of Homeland Security, and have already begun those 
efforts by not only sharing office space with them at our--in 
one of my component commands, the Joint Task Force for Global 
Network Operations (JTF-GNO).
    By sharing lessons learned that we have learned over the 
last several years in trying to get our arms around defending 
just the military networks, we have established linkages 
between their centers, their Computer Emergency Response Team 
(CERT), and our command and control centers, so that we can 
share information, should we see a new threat vector coming 
into the military networks, that we make sure that they are 
aware of that, and vice versa. So today, we have begun to build 
a support linkage in that area.
    I think the broader question of who should best do this for 
the other parts of America, where we worry about defending our 
power grids, our financial institutions, our 
telecommunications, our transportation networks, the networks 
that support them, I think that is going to be a key outcome of 
the 60-day study that the President has chartered, and probably 
findings beyond that study.
    But I think that is the intent, is to take a good, hard 
look at what are the appropriate roles and responsibilities to 
go forward in that regard? And we at STRATCOM will be prepared 
to support in whichever way that we are directed to go forward.
    Mr. Langevin. Okay. Let me go to another one.
    STRATCOM recently reorganized its structure--I think you 
alluded to this in your testimony--reorganized its structure 
for cyberspace operations, placing the Joint Task Force for 
Global Network Operations under the direct command of the Joint 
Functional Component Command for Network Warfare (JFCC-NW), who 
also acts as the director for the National Security Agency.
    How effective do you believe that this reorganization has 
been? And, as a follow up, does this put too much military 
authority under our Intelligence Community? And as a follow-on 
to that, where does the Department of Homeland Security's 
mission to protect critical infrastructure fit under this new 
command?
    General Chilton. On the first point, what we have done is, 
the command authority still runs from the commander of U.S. 
Strategic Command, so these organizations still report to 
STRATCOM. And that is important, I think, because we have a 
Unified Command Plan that gives us authorities and 
responsibility, and a command chain that runs down.
    In the past, I had two components working the cyber problem 
for me, one prepared for attack and attack as directed, and the 
other for operate and defend.
    And what we have done is, I have delegated operational 
control of the operate and defend to my network warfare 
commander, General Alexander.
    Now, the advantages of this, and the reason we did this, is 
because we firmly believed you cannot look at operate, defend, 
prepare to attack, attack and exploit, in stovepipes. You need 
to be able to look at them holistically, because they are so 
interconnected.
    One can inform you of an impending attack, and allow you to 
posture. As you consider offensive operations, you want to make 
sure your defenses are up. When you are under attack, of 
course, a way to respond is stronger defenses, but also attack. 
Offense is also sometimes the best defense.
    So, finding a way to bring these two organizations together 
and more closely aligned is the intent.
    We have already begun to see fruits from that, from that 
work, and better cooperation between the organizations. But we 
still have a lot of work to go.
    General Alexander is just bringing forward to me now, and 
we are starting to assess, a plan that would show how he would 
implement, in detail, that organizational construct, which will 
require for him to grow some capabilities to oversee that 
entire staff, if you will, to oversee that entire group now.
    An important point though. When General Alexander is 
working in this particular position, as the commander of JFCC-
Network Warfare, he is wearing a STRATCOM badge, and he is 
reporting to the STRATCOM commander. We take great advantage of 
his linkages when he wears his other hat as the director of 
NSA, to build the bridges and linkages that we need for 
intelligence support to do the work that we do for operating 
and defending a gig every day.
    So, the marriage and the close relationship there between 
the NSA when he wears that hat, and when he is wearing his 
network warfare hat and working for me, is really important 
when we think about how best to operate, defend and then, 
potentially, if directed, attack through cyberspace.
    And then, sir, if you could repeat the last part of your 
question. I am sorry, I did not----
    Mr. Langevin. The last one is, where does the Department of 
Homeland Security's mission to protect critical infrastructure 
fit under this new command?
    General Chilton. Where does it fit.
    Actually, again, I think the 60-day study might inform us 
on that. But it does not fit at all today. This command 
organization is aligned directly to support the commander of 
U.S. Strategic Command and the Unified Command Plan missions we 
have been given, which do not include defense of the homeland 
for those other networks, but are solely restricted to 
operating and defending the military networks.
    Mr. Langevin. I know you have a great challenge on your 
hands in protecting us in cyberspace, and I offer my support 
and whatever I can do to make your job easier.
    And I thank the Chair.
    Ms. Tauscher. Thank you, Mr. Langevin.
    And I am happy to recognize the gentleman from Washington, 
Mr. Larsen, for five minutes.
    Mr. Larsen. Thank you, Madam Chair.
    General Chilton, just to continue on the theme of cyber 
command, there are renewed discussions about establishing a new 
unified command for cyberspace operation.
    In your assessment, what would be the impact of that, both 
for it and against it, of moving organizations such as the 
Joint Functional Component Command for Network Warfare and the 
Joint Task Force, out from under Strategic Command?
    General Chilton. Well, Congressman, first of all, we have a 
cyber command today, would be my first comment. And that is 
U.S. Strategic Command, because we have that mission today. And 
it is a mission we take very seriously, and a mission I think 
we have successfully advanced quite well in the operation and 
defense of the military networks.
    There is another advantage to the mission set that have 
been given to U.S. Strategic Command. You will notice they are 
global in nature. They really are agnostic to lines drawn on a 
map, or even continents and oceans--mission sets of deterrence, 
the mission sets of space, and the mission sets of cyberspace.
    One of the great strengths of having those under one 
organization is our ability to, when given a problem--and 
ultimately, a problem will resolve around a country that the 
United States has a problem with--we have the unique oversight 
and insight into these global domains, and can find synergies 
and opportunities to present integrated capabilities to the 
regional combatant commanders as we support their operations.
    And so, I think there is a good synergy today for these 
three global mission sets in U.S. Strategic Command.
    The other side of the argument is for standing up a single, 
focused command, you would gain the advantage of single focus 
in this area. And recall, we once had a single-focused U.S. 
Space Command. So, it would not be without precedent.
    The challenge--there are some advantages to that in a 
singular focus, of course. But the challenge would be how to 
make sure you bring that integrated in, in an integrated 
fashion, to a set of capabilities that it would support, might 
make that a little more difficult.
    And so, I think those would be just the broad balance 
comments I would have on that. But, rest assured, we have a 
cyber command today, sir. It is U.S. Strategic Command.
    Mr. Larsen. I get your drift on what your thoughts are on 
that.
    I wanted to talk a little bit about the personnel side, the 
people side, because you did note that the schools are there. 
They are putting people out, producing folks.
    But you still, I think in your verbal testimony, or your 
answer to a question, it sounded to me like you expressed some 
level of concern about, maybe it was a curriculum you had 
concern with. I am not sure. You talked about--you used the 
word ``correctly,'' to try to be sure we structured these 
schools ``correctly.''
    So, I guess I am hearing a bit of a disconnect in your 
thoughts about the schooling and----
    General Chilton. No, I may have misspoken there, sir. I do 
not have any issues that have been brought to my attention, or 
that I have with regard to our schoolhouses.
    What we are doing is increasing the number of people we are 
putting through the schoolhouses, in an effort to increase the 
corpus of expertise we have in this particular area. And I 
think that is a good thing.
    Where we are short of people, if you were to take a look at 
my Joint Task Force for Global Network Operations and our Joint 
Task Force for Network Warfare, and we have done a lot of 
studies over the last year-and-a-half on what levels they 
should be manned at.
    The manning is just not there. We have not been able to get 
either the positions I feel we need, or the belly buttons, if 
you will, to fill those positions appropriately.
    And so, there is a challenge here. And it is not one that 
you would not anticipate in the development of a new mission 
set in a new domain. And that is, understanding requirements, 
what it takes to operate and do the missions you have been 
given in that area. And I think we have worked that really 
hard.
    And then, growing and fielding the people, and organizing, 
training, and equipping the people to do that. The services 
know well today how to organize, train, and equip people for 
air, land, and sea operations, and space operations.
    And now the challenge is to make sure we understand how to 
organize, train, and equip people for cyberspace operations, 
and adequately man the force that is chartered to provide the 
security the Nation needs.
    Mr. Larsen. So, are the services still trying to catch up 
with the specific needs of what that new community--that 
community needs?
    General Chilton. Right. And we have worked very closely 
with the services to help define and understand what those 
requirements might be for the future, by kind of looking back 
on past operations, by doing exercises, tabletop exercises and 
discussions. We have done quite a bit of work with the services 
over the past year, year-and-a-half, in this area.
    So, at U.S. Strategic Command, we feel like we have a good 
idea on what the needs are. And now we are in the process of 
articulating them. And as we look forward, we will look for 
additional support from the services to not only send the 
people to the schools, which they are doing, but to think about 
how they organize, train, and equip to support these mission 
sets.
    Mr. Larsen. Madam Chair, are we doing a second round of 
questions?
    Great. I will yield back then.
    Ms. Tauscher. What are the most important steps the U.S. 
needs to take to improve our Space Situational Awareness 
capabilities, and what capabilities are the services, and the 
combatant commanders, and the Intelligence Community telling 
you they need from future space systems? And how do you see 
STRATCOM facilitating the efforts needed to meet those needs?
    General Chilton. From the Space Situational Awareness 
perspective, it is kind of a multi-pronged approach that is 
required. And you start, basically, with your ability to sense 
the domain, or to scan and surveil the domain.
    And so, improvements in this area are important. And so, it 
is both in ground-based systems, some of which we continue to 
sustain from Cold War developments, developed systems. But 
also, we need to look for opportunities to expand our 
surveillance architecture beyond even just the borders, the 
traditional borders of the United States and where we have them 
today, because in this area, geography does matter. Where you 
are located on the Earth matters.
    And so, we need to look at opportunities to expand our 
surveillance, both with ground-based radars and electro-optical 
capabilities in space. And there are opportunities here, I 
believe, to work with our friends and allies, to team with them 
in this particular area.
    Next, we could do a better job today, and we are working 
this problem hard, with taking the data we receive from these 
sensors, and the data we could receive in the future, and bring 
them into our Joint Space Operations Center (JSpOC) at 
Vandenberg Air Force Base, in a fashion, in a machine-like 
fashion, where we can bring them in in an integrated fashion to 
look at.
    Today, my commander for space, General Larry James, out 
there, oftentimes finds himself having to integrate all these 
different piece parts of the domain of space that he has 
charted to surveil on PowerPoint charts, as opposed to a 
holistic wave, or we would look at in the air domain, a common 
operating picture type display, where you could take one look 
on the big wall and see who the good guys are, who the bad guys 
are, who the neutrals are, and what they are doing in that 
domain.
    Ms. Tauscher. Would that be like a fusion cell or----
    General Chilton. A fusion technology capability.
    Ms. Tauscher [continuing]. Technology capability.
    General Chilton. But it requires----
    Ms. Tauscher. Would you have to develop that yourself?
    General Chilton. No, you know, we have--services need to do 
that for us. And so, we are the demanding customer. And then we 
look to, in this case, the Air Force is working this problem 
for us through their acquisition arm at both the Space and 
Missile Systems Center (SMC) in Los Angeles, and the Electronic 
Systems Center (ESC) back at Hanscom.
    So, getting common data, getting more data in, getting 
common data formats in, into a fusion-type machine is 
important. Calculation capability, or computer processing 
capability, is an important element, too, that is resident at 
the Joint Space Operation Center in the first space control 
element there, where you need to be able to--you know, we are 
tracking 18,000 pieces or objects in space today. More than 
that. Some is debris. Some are active satellites. And you worry 
about them running into each other, as was evidenced lately.
    The computational capability to do that can be increased. 
Today, we only do what is referred to as conjunction analysis, 
better said collision, potential collision analysis, for our 
highest priority satellites. And the highest, of course, being 
our manned systems, the International Space Station and the 
space shuttle.
    But it is a small subset of all the active satellites up 
there. And I believe we can look at opportunities to improve 
that capability, because I think where we need to go is to not 
only worry about those few high priorities that we have there, 
but all satellites that the U.S. military, at least, relies on 
for military operations. And that oftentimes includes civilian 
satellites, which we lease. And we are not able to do that 
today.
    So, better sensors and more of them, common data, fusion 
element, computational capabilities, I think are areas that we 
can improve on. And I would add one more point.
    I am really excited about the Space Based Space 
Surveillance (SBSS) system, which will be launched, either at 
the end of this year or early next, which will be the 
operationalizing of an experiment, called the Midcourse Space 
Experiment/Space Based Visible (MSX/SBV), where we discovered 
there was actually value in being in space in observing space, 
particularly in the geosynchronous belt.
    And this capability, when we get up there, I am excited to 
see the improvements that will make in our situational 
awareness, particularly at the geosynchronous altitudes.
    Ms. Tauscher. General, are you the first astronaut to be 
STRATCOM commander?
    General Chilton. Yes, ma'am.
    Ms. Tauscher. That is pretty cool, is it not?
    General Chilton. Being an astronaut was pretty cool. 
[Laughter.]
    I was very blessed to be a part of the National Aeronautics 
and Space Administration (NASA) for a part of my career. And 
what a great organization to be a part of.
    Ms. Tauscher. Well, you bring a very distinct pedigree to 
the job. So, I am sure that that will inform us and make us 
even better than we have ever been.
    General Chilton. Thank you.
    Ms. Tauscher. I am going to reserve any further questions I 
have and turn to Mr. Turner from Ohio.
    Mr. Turner. Thank you, Madam Chair.
    General, earlier this year, the Administration requested a 
review by DOD and the Department of Energy (DOE) to include the 
National Nuclear Security Administration (NNSA) to, ``assess 
the cost and benefits of transferring budget and management of 
NNSA or its components to DOD and elsewhere.''
    What are STRATCOM's or your views on this, on the 
Administration's idea, and that review?
    General Chilton. I guess I do not have any particular views 
one way or the other on that. I think it is a valid question to 
ask. I think it is a good question for the Administration to 
take on, and I am glad they are looking at it.
    But I think it is not just a question for the 
Administration. It is a question for the Congress, as well, 
because, I mean, they are interlinked there in the oversight 
role, as well.
    And so, I look forward to the results of the 
Administration's look at this here when that is published.
    Mr. Turner. One of the issues that you and I have discussed 
that I just want to put a footnote to this hearing, and not to 
discuss in an exchange here, is the issue of the security for 
our nuclear weapons, our labs, our nuclear installations that 
certainly, any such study would be a part of.
    And I would continue to look to you, to your thoughts as to 
ways that we can enhance that, having a concern as to what our 
vulnerabilities might be, both within NNSA, DOE, and DOD. So, I 
would appreciate your continued thoughts in that area.
    General Chilton. Thank you.
    Mr. Turner. Turning then to space, as our Chair was 
discussing, there is certainly the--this is an evolving time. 
You and I were, as we were just talking in the opening, and 
there is so much that is happening in what we are seeing other 
actors doing in space.
    If you could talk for a moment, what is our posture, our 
plans or our policies, if we should be attacked? If someone 
should attack our space assets, how is it at this point that we 
proceed?
    General Chilton. Well, the United States always maintains 
the inherent right of self-defense. And our policy has been 
that an attack on one of our space assets would be considered a 
serious attack on the United States.
    So, in our view, those are sovereign assets up there, the 
U.S. satellites that are up there. And it is one that we would 
take very seriously.
    From a STRATCOM perspective, who is chartered to operate 
and defend our space systems, our military space systems, we 
have to always remind ourselves to look at it from a holistic 
perspective. There is a deterrence part of this, and there is 
an asymmetric part of this, as well.
    It is easy to get too wrapped up in the physical defense, 
if you will, of a satellite, and not pay attention to the fact 
that that satellite cannot do its mission without an electronic 
connection to the ground. And that electronic connection, both 
for the maintenance of the health of the satellite and for 
directing its mission, is not only essential, but also a 
vulnerability.
    And that electronic signal comes back to a ground station, 
which is fixed. So, in itself, that is a vulnerability. And 
then, it is probably plugged into the cyberspace to take 
direction, as well.
    And so, when we at STRATCOM think about defense of space 
assets and we bring in both the cyber perspective, the 
electronic warfare perspective, the physical security 
perspective, when we think about that, and then also, what can 
be done with regard to our on-orbit satellites in both 
enhancing their awareness and our awareness of what is going on 
around them, or from the ground, being directed toward them--
all as an integral part of the equation when we think about 
this.
    Mr. Turner. And that was the next area that I was going to, 
is this issue of deterrence. We have so many actors that are 
gaining in their capabilities, who are dedicating significant 
resources to their space assets and their ability to disable or 
diminish our assets.
    On the nuclear side, on the missile defense side, we talk 
about deterrence frequently. What are some of the things that 
we can be doing more, or that we should focus on more in 
looking to the area of deterrence in space?
    General Chilton. Well, deterrence in any area involves a 
couple of things. One, a position needs to be taken on--a 
policy position, if you will.
    So, you have to be able to look somebody in the eye and 
say, ``If you do this, then--'' and then, whatever the ``then'' 
is, has to be credible. Both credible internally, but most 
important, credible in the individual's eye who you are trying 
to deter.
    It is not necessarily linked that, if there is a cyber 
threat, that you have to have a capability in cyberspace to 
deter somebody. Or if there is a space problem, that it has to 
be a space capability that deters them, or conventional, 
either.
    I mean, you can go across domain and across areas and draw 
the lines in different areas. It could be an economic 
deterrent. If you do this, then you will suffer these economic 
or diplomatic penalties. That can be part of a deterrent 
strategy, as well. So, there are lots of elements that you can 
bring to bear in the quiver here.
    And again, we have got to be cautious that we do not just 
get overly focused and say, because it is a space capability or 
space issue, we need a space capability to deter that.
    We may have an adequate suite of other capabilities to 
deter that particular adversary. But we have got to have a--we 
also need to have a policy statement that puts the will behind 
the deterrent capability to make it effective.
    Mr. Turner. Thank you, General.
    Thank you, Madam Chair.
    Ms. Tauscher. Happy to recognize the gentleman from 
Washington for five minutes, Mr. Larsen.
    Mr. Larsen. Thank you, Madam Chair.
    General, last year I was briefed on STRATCOM's electronic 
warfare (EW) capabilities assessment--capabilities-based 
assessment, which identified gaps in our military EW 
capabilities. I understand you are now working to finish the 
Functional Solutions Analysis (FSA)----
    General Chilton. Right.
    Mr. Larsen [continuing]. The FSA, which will include 
recommendations for how to address these deficiencies.
    Could you let us know a little bit more about the role 
STRATCOM is going to play in implementing the solutions for EW 
gaps? Does STRATCOM just hand the FSA, the Functional Solutions 
Analysis, to the services? If not, what role will you play to 
make sure the recommendations--the appropriate ones--are 
implemented?
    General Chilton. Thank you, Congressman.
    The FSA recommendations, as well as every other area that 
STRATCOM is chartered by the UCP to advocate in, whether it is 
missile defense, ISR, or, in this case, information operations 
or, combating weapons of mass destruction. These are areas 
where we have no forces or capabilities assigned to us, but we 
are ordered to get the warfighter input and advocate.
    And so, what we will do with the FSA when it goes forward, 
of course it will be shared with the services. But the intent 
of doing this whole work, including the capabilities based 
assessment (CBA) and now the FSA, was to bring those forward in 
a fashion, to inform the fiscal year 2011 POM deliberations 
that will come this summer and fall.
    And STRATCOM has a chair at the table, in particular 
portfolios of the POM deliberations. And most importantly, my 
J-8 staff, and that team gets embedded in the issue teams that 
address the trade space and the issues to be brought up to 
senior level decision-makers.
    And that is where we have our best effect, I believe. Just 
having a seat at the table and being in the debate, making sure 
it is an informed debate, and bringing that perspective to not 
only the Department of Defense at the Program Analysis and 
Evaluation (PAE) level, the Office of Secretary of Defense 
(OSD) level, but also at the services. And we found great 
success in sharing our input at that level, and coming to 
accommodations, even before the OSD review of the program.
    But that is how we influence it, is by having a chair at 
the table. And I have a chair at the table at certain elements 
of the discussions that has proven very valuable.
    Mr. Larsen. Well, it has been an issue I have been tracking 
quite closely. The Navy's EW community, the electronic aircraft 
community, is in my district. I kind of got rolling on this 
with the Prowler squadrons, ended up working on the ground with 
our Marines and Army folks in Iraq and Afghanistan. And then, 
the Army is standing up a cadre of EW technicians, 1,600 by 
2013 or so. And trying to be sure that we do not create just 
another set of stovepipe EW functions within the services, but 
looking at a more broad, defense-wide EW approach, I think it 
is real important.
    And my understanding of the CBA was this was 1 of 10 lines 
I think, capabilities-based assessments that were being done 
over the last couple of years. The one related to EW is--the 
idea is to look at a more broad-based approach, and a more 
integrated approach within the Pentagon.
    General Chilton. Well, I think that is important. It was 
brought to the attention of the broader community about--a 
little over a year ago, that maybe we had lost attention, focus 
on the electronic warfare area, and it was an area we paid a 
lot of attention to, I know, in the past. I remember, growing 
up in the Air Force we certainly did.
    And it was heightened not only by shortfalls perhaps in the 
air domain, but it was the need for increased focus in a land 
domain was amplified by the improvised explosive device (IED) 
problem that we faced over in Iraq and now face in Afghanistan, 
as well, and the electronic--you know, the remote ignition of 
those devices.
    And so, I think you are exactly right, Congressman. We have 
an opportunity here, I think. I am excited to see the results 
of the FSA and how that moves forward, and an opportunity to 
look at EW again in the appropriate light and focus area, and 
look at it broadly.
    Mr. Larsen. Just another question. Thank you very much for 
that and expanding on that for me.
    There is an interesting comment in your written testimony 
that you did not cover in your opening testimony. And there is 
a lot in there. Of course, we give you five minutes, so I did 
not expect you to cover everything.
    But then you should expect us to read what you wrote. So, 
on export controls. Near the end you talk about unnecessary 
constraints by export control legislation and regulation and 
the need for appropriate flexibility to permit relevant 
technology transfer to allies or to decontrol--the decontrol of 
some technology in a timely fashion when commercial 
availability renders their control no longer necessary, mainly 
to help our friends and allies.
    It is not new to me to hear that from folks. It is maybe 
new to me to hear that from STRATCOM or anyone in the military.
    Can you talk about some of the discussion taking place 
within STRATCOM about export control legislation, regulation, 
and why you see the need for some changes?
    General Chilton. Yes, I guess it would be unfair for me to 
say that there is a lot of discussion within STRATCOM. And----
    Mr. Larsen. Well, let me put it this way.
    General Chilton. But I will----
    Mr. Larsen. You are the four-star general in charge of 
STRATCOM.
    General Chilton. Sure.
    Mr. Larsen. It is in your testimony. So, that tells me 
there is enough discussion in STRATCOM----
    General Chilton. Well, observation, perhaps, is a better 
way for me to say it.
    And in working with the Space Partnership Council, we work 
very closely with the National Reconnaissance Office (NRO), the 
Joint Staff, NASA, the Air Force. I have listened closely, in 
particular to some of the past NASA administrator's concerns 
about America's ability to compete internationally. I have 
heard comments from foreign--other folks from the European 
Space Agency, for example, saying the best thing that happened 
to their commercial space enterprise was International Traffic 
in Arms Regulations (ITAR). I mean, I do not know the veracity 
of that or not. But the comment was made.
    So, I just went down to French Guiana at the invitation of 
the French government, to observe an Ariane 5 space launch and 
tour their facilities. And it was very enlightening to me, and 
I much appreciated that.
    I think they launched four satellites on top of that 
Ariane. None of them were U.S.-made. I think there was a U.S. 
company participating in one of the satellites.
    But just data points, if you will, for me. And as I knit 
that together in my mind and think about what is required to 
sustain the industrial base of the United States of America for 
our critical communications satellites, our early warning 
satellites, weather satellites, Global Positioning System (GPS) 
satellites for the future, et cetera, I am concerned from 
inputs that I am receiving from others within our government 
outside of STRATCOM and the DOD, from observations I have made, 
that perhaps we need to take a look at this.
    I understand clearly that we have to protect critical 
components that are sensitive in some sense, a military nature 
or scientific nature, that we might not want to share for 
national security reasons. But our industrial base is a part of 
our national security infrastructure, as well.
    And so, all I am suggesting is that I think it would be 
fair to take a look at this and see is it--ask and try to 
answer the question--are our current regulations and policies 
putting at risk our industrial base for our national security 
requirements of the future, or not? Which could include our 
ability to compete commercially, but, you know, that is 
certainly out of my lane.
    Mr. Larsen. Thank you very much. That was a very 
informative answer. I appreciate it.
    Thank you.
    Ms. Tauscher. The gentleman from Arizona, Mr. Franks, for 
five minutes.
    Mr. Franks. Well, thank you, Madam Chair.
    General, you know, I do not want to place you in the 
crossfire of any policy decision that this committee may have 
to deal with. So I guess the best way to do that is to be very 
candid with you as to my own policy concern about an issue that 
has been in the news lately, and that I think that there is a 
growing concern, at least on my part, and that is related to 
the European site.
    I will be very direct with you and members of this 
committee. I believe that that site is in danger of being 
scaled back, delayed or even potentially canceled. And I also 
believe that there are some windows of opportunity that we may 
have to devalue the Iranian nuclear program to the extent that 
perhaps, you know, the hope is that we can prevent that from 
ever coming into full being.
    And again, an oft-stated concern of mine is that that 
program may eventually lead to giving technology to terrorists 
that would change our concept of freedom forever in our 
country.
    With the growing, at least incontrovertible, issue of long-
range missile capability, without even addressing the nuclear 
component, but with the growing, long-range missile capability 
of Iran--and I will ask you, if I can, outside the policy 
considerations, to just--if you could address the advantages, 
both strategically and tactically, that a fixed missile defense 
site has, like the one that we have heretofore planned in 
Europe, over some of the other sites in terms of its defense 
capability and deterrent capability.
    I hope I have said that right, General. Does that give you 
enough to go on?
    The main advantage I am looking for here is just from a 
military perspective. What is the advantage to having a fixed 
missile defense site in Europe to deal with potentially Middle 
Eastern missiles coming either toward the European allies or 
forward deployed troops, or, most importantly, our homeland?
    General Chilton. Okay. I think I can answer that from a--it 
is really, I think, more of a physics problem than anything. 
And that is, if you envision a threat from Iran in the future, 
of an Intercontinental Ballistic Missile (ICBM), and even at a 
long-range, Intermediate Range Ballistic Missile (IRBM) threat, 
a credible threat of that being developed, that would hold at 
risk the United States of America, and Europe.
    Then, if you look at just the geometry of that, if your 
intention is to field a system that can defend both of those, 
or add to the defense of both Europe and the United States of 
America, then you would probably logically look to something on 
the European continent, in that vicinity.
    If you were just concerned about defense of the United 
States of America, you would not necessarily need to do that. 
And so, therein lies--you know, it is really just a geometry 
problem and physics problem, in my view, but linked closely to 
our policies and our agreements, and also linked closely to the 
threat and how that might develop.
    Mr. Franks. Well, I really hope that this year's Nuclear 
Posture Review will embrace your own position, so that we can 
appropriately--and I am switching gears on you--appropriately 
support a nuclear posture that is based on reality, and not 
academics or just abstract theories.
    You mentioned that decreasing the level of readiness for 
the nuclear stockpile would be like--to use your words--taking 
the now, or sort of the now-holstered gun apart, and mailing 
pieces of it to various parts of the country, and then when you 
are in a crisis, deciding to reassemble it.
    Now, I think that is a very apt description. But I wonder 
if you could expand on the risk of decreasing the level of 
readiness for our nuclear stockpile.
    General Chilton. Okay. Again, I made the comments in the 
context of our current policy and strategy. And I do not take 
off the table the absolute necessity to relook at that as part 
of a policy or strategy review.
    I perhaps overstated, or stated, I think the analogy is 
still valid. But you could also say the analogy could be like 
taking the gun apart and just dispersing it around this room, 
as opposed to mailing it around the country. So I maybe used 
one where you envisioned having to rely on FedEx to pull this 
back together, as opposed to self-assembly.
    But the point is that that is essentially what you are 
talking about doing, is you are delaying the ability, the 
responsiveness. You are eliminating the responsiveness of the 
system.
    One thing that I think needs to be discussed broadly in the 
Nuclear Posture Review, and in any policy or strategy 
discussion with regard to our posture, is this concept of 
stability, strategic stability.
    It was really important in the Cold War, and it was 
important to the Russians and important to us, as well. And 
there was even dialogue between us and the Russians--the 
Soviets, I should say then--on strategic stability.
    And what this refers to in the theory, which I think is, in 
practice, a real concern, is you want to make sure you have 
taken away any incentive for an adversary to feel the need to 
strike first--or be tempted to strike first, because they felt 
like they could win.
    And so, how you put your forces on alert can add to--what 
levels of alert and how you posture them--can add to or detract 
from strategic stability. And so, that needs to be considered 
if we take this question up as we go forward.
    How does changing the alert posture of our forces, whether 
they be the ICBMs or the submarines--we clearly did for the 
bombers already--how does that address the calculus of 
stability in the deterrence equation?
    Mr. Franks. Well, thank you, General. I certainly wish you 
the best.
    And thank you, Madam Chair.
    Ms. Tauscher. You are welcome, Mr. Turner.
    Does any member have a further question?
    General Chilton, thank you for being before us today. Thank 
you for your hard work and your leadership of STRATCOM. And the 
thousands of enlisted people, men and women, and the civilian 
force that works with you, thank you very much for their 
service. Please thank them for us.
    This hearing of the Strategic Forces Subcommittee is 
adjourned.
    General Chilton. Thank you, ma'am.
    [Whereupon, at 11:31 a.m., the subcommittee was adjourned.]


=======================================================================




                            A P P E N D I X

                             March 17, 2009

=======================================================================





=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 17, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 51759.001
    
    [GRAPHIC] [TIFF OMITTED] 51759.002
    
    [GRAPHIC] [TIFF OMITTED] 51759.003
    
    [GRAPHIC] [TIFF OMITTED] 51759.004
    
    [GRAPHIC] [TIFF OMITTED] 51759.005
    
    [GRAPHIC] [TIFF OMITTED] 51759.006
    
    [GRAPHIC] [TIFF OMITTED] 51759.007
    
    [GRAPHIC] [TIFF OMITTED] 51759.008
    
    [GRAPHIC] [TIFF OMITTED] 51759.009
    
    [GRAPHIC] [TIFF OMITTED] 51759.010
    
    [GRAPHIC] [TIFF OMITTED] 51759.011
    
    [GRAPHIC] [TIFF OMITTED] 51759.012
    
    [GRAPHIC] [TIFF OMITTED] 51759.013
    
    [GRAPHIC] [TIFF OMITTED] 51759.014
    
    [GRAPHIC] [TIFF OMITTED] 51759.015
    
    [GRAPHIC] [TIFF OMITTED] 51759.016
    
    [GRAPHIC] [TIFF OMITTED] 51759.017
    
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 17, 2009

=======================================================================

      
                  QUESTIONS SUBMITTED BY MS. TAUSCHER

    Ms. Tauscher. The Congressional Commission on the Strategic Posture 
of the United States, which was established by the FY 2008 defense 
authorization bill, will deliver its final report in two weeks. One of 
the key issues they have been examining is whether the concept of 
strategic deterrence changed since the end of the Cold War? Do you 
believe it has? If so, how?

    <bullet>  What implications might such changes have for the size 
and composition of the U.S. nuclear deterrent force?

    <bullet>  What implications might such changes have for the non-
nuclear elements of U.S. strategic posture?

    General Chilton. The concept of strategic deterrence has evolved 
since the end of the Cold War. Deterrence must be effective across a 
spectrum of potential adversaries from nation states to individuals as 
a function of the adversary's decision maker, security environment, 
U.S. objectives, and other factors. Strategic deterrence must address 
the desire of states and non-state actors to acquire and use weapons of 
mass destruction (WMD) against the U.S. and our allies. Nuclear weapon 
and ballistic missile proliferation remain critical concerns with 
respect to non-state actors and rogue nation states. In addition to 
these broader strategic deterrence requirements, our extended 
deterrence capabilities must assure our allies and encourage non-
proliferation, reaffirming the continuing need for a credible, 
reliable, safe, and secure nuclear deterrent.
    The end of the Cold War has had a profound impact on the size and 
composition of the U.S. nuclear deterrent. The Nation has reduced our 
stockpile from over ten thousand warheads to just over two thousand 
operationally deployed strategic nuclear warheads (ODSNW). It may be 
possible to further reduce these numbers, but reductions must be done 
in concert with synchronized revisions to our national nuclear 
strategy, arms control agreements, and nuclear stockpile modernization 
efforts. It is anticipated that the NPR will explore and develop the 
force structure for the nuclear forces that will be needed for the next 
5-10 years. The Nuclear Posture Review (NPR) and Strategic Arms 
Reduction Treaty (START) follow-on negotiations are underway this year 
and USSTRATCOM will fully support both of those efforts. Additionally, 
future credibility of our nuclear deterrent will depend on stockpile 
modernization. A modern warhead coupled with a responsive nuclear 
infrastructure would retain our ability to hedge against technological 
or geopolitical uncertainty with fewer numbers of warheads in the 
stockpile.
    We face threats today that cannot be deterred with nuclear weapons 
alone. We have been the victim of cyberspace intrusions and have seen 
other nations develop capabilities to hold our space assets at risk. 
The strategic deterrence challenge for the non-nuclear elements of U.S. 
strategic posture is to hold at risk what our enemies value most, to 
counter ideology, WMD acquisition, ensure survivability of our networks 
and space assets, and protect against a WMD attack. Along, and in 
coordination with the NPR, the Quadrennial Defense Review is 
anticipated to explore and develop recommendations for non-nuclear 
forces that will also consider their value in deterring adversaries 
along these lines. Our non-nuclear capabilities must continue to 
advance in technology and quantities to address the broad range of 
adversaries in a balanced way.
    Ms. Tauscher. The Nuclear Posture Review (NPR) is expected to be 
completed by the end of 2009. What key issues should the NPR address?
    General Chilton. As we seek to balance capabilities and resources 
for our complex strategic environment, the NPR should address the 
following:

    1.  Role of nuclear forces in U.S. national security strategy, 
planning, and programming.

    2.  Policy requirements and objectives for the U.S. to maintain a 
reliable, safe, secure, and credible nuclear deterrence posture.

    3.  The relationship between U.S. nuclear deterrence policy, 
targeting strategy, and arms control objectives.

    4.  The role missile defense capabilities and conventional forces 
play in determining the role and size of nuclear forces.

    5.  The levels and composition of the nuclear delivery systems 
required for implementing the United States national and military 
strategy, including any plans for replacing or modifying existing 
systems.

    6.  The nuclear weapons complex necessary to sustain a credible, 
reliable, and safe nuclear deterrent and remain flexible to respond to 
geopolitical and technological change.

    7.  The active and inactive nuclear weapons stockpile required to 
support U.S. national and military strategy, including any plans for 
replacing or modifying warheads.

    8.  Recognition of the need to assure allies as well as deter 
potential adversaries.

    Ms. Tauscher. What do you believe are the security threats with the 
greatest implications for our strategic posture and policies? In view 
of such threats, are we making the right investments in strategic 
systems?
    General Chilton. The security threats with the greatest 
implications to our strategic posture and policies are regional and 
non-state actors who seek to develop, acquire, proliferate, or use 
weapons of mass destruction (WMD). Over the last decade, states have 
expanded both nuclear weapon production capabilities and delivery 
system testing; further increasing the risk of proliferation to non-
state actors seeking to harm the U.S. and our allies.
    USSTRATCOM supports an interagency approach which synchronizes 
government-wide deterrence activities to ensure our national leadership 
has credible capabilities to meet today's broad security challenges to 
combat the spread, transfer, or use of nuclear, biological, and 
chemical weapons. We must continue to credibly deter through a broad 
strategy that includes a complementary approach to the sustainment, 
modernization and security of our strategic systems as well as a clear 
focus on nonproliferation activities. We must continue making critical 
investments to sustain, modernize and recapitalize our strategic forces 
to maintain a credible deterrent into the foreseeable future.
    Ms. Tauscher. What is your assessment of other countries' nuclear 
and strategic forces programs and intentions? How should they influence 
U.S. strategic forces policy and programs?
    General Chilton. The U.S. is the only nuclear weapon state party to 
the Nuclear Nonproliferation Treaty that is not in the process of 
modernizing its nuclear arsenal. Other countries are exercising the 
full weapons development cycle (design, develop, produce and assess) 
and have committed to modernization of their delivery systems, 
stockpiles and associated infrastructures. To maintain a credible 
deterrent, assure allies, and ensure a safe, reliable, secure nuclear 
stockpile the U.S. must maintain the capability to fully exercise this 
process. The U.S. nuclear enterprise infrastructure has atrophied 
during the past two decades and requires a near term commitment to 
recapitalize key production capabilities needed to sustain the 
deterrent. The nation has sustained its nuclear deterrent by extending 
the lives of aging Cold War strategic forces and relying on a large 
hedge of non-deployed legacy warheads to manage risk. While today's 
U.S. stockpile remains reliable, safe, and secure, concerns exist about 
long-term confidence in our aging weapons. We must explore options to 
increase the long-term confidence in our stockpile while also 
recapitalizing the infrastructure and reducing the large hedge of non-
deployed weapons.
    Ms. Tauscher. Do you see any risks to the U.S. moving lower than 
the Moscow Treaty's specified range of 1,700 to 2,200 operationally 
deployed warheads? What specific military conditions might make further 
stockpile reductions acceptable?
    General Chilton. Today's stockpile adequately addresses current 
policy and strategy goals, but we will incur additional risk if 
operationally deployed warheads are reduced below levels needed to 
address these goals. Without a production capability, we currently 
mitigate technological and geopolitical risk by maintaining a large 
hedge of non-deployed weapons. This year's Nuclear Posture Review 
(NPR), and Quadrennial Defense Review (QDR), will provide the national 
policy and strategy basis for defining future nuclear force structure, 
stockpile, and infrastructure requirements, and will consider current 
and potential future military conditions in their decisions.
    Ms. Tauscher. Would a decrease in operationally deployed warheads 
to a range of 1,000 to 1,200 substantially change the investment 
required to maintain our nuclear arsenal?
    General Chilton. The nuclear posture review will examine this type 
of questions. However, because a significant portion of the 
infrastructure cost associated with maintaining the arsenal is fixed, 
an action to reduce operationally deployed warheads by itself would not 
significantly change the investment required. While a smaller stockpile 
and reduction in warhead types can reduce long-term operating and 
sustainment costs, investment is still required to retain core human 
capital and manufacturing capabilities inherent in a credible nuclear 
deterrent. In the short-term, deployed stockpile reductions may 
increase costs for warhead storage, transportation and dismantlement.
    Ms. Tauscher. What impact, if any, would such a reduction in 
deployed warheads have on STRATCOM?
    General Chilton. It is anticipated that reduction in the number of 
nuclear weapons would be accompanied by a new strategy and guidance for 
optimizing the strategic deterrent forces to meet the U.S. national 
security requirements. As a result, USSTRATCOM would be tasked to 
develop and ultimately implement operational direction to the nuclear 
forces in coordination with force providers.
    USSTRATCOM will continue its advocacy efforts to ensure delivery 
systems and warheads are highly reliable, leaving no doubt of their 
effectiveness or our ability to use them if directed by the President. 
As the number of weapons is reduced, the reliability of those that 
remain must be assured, and if possible, enhanced.
    USSTRATCOM will continue to place great effort into ensuring the 
warheads are safe and secure, both to prevent accidents and to prevent 
unauthorized use. No matter the number of deployed warheads, nuclear 
surety will remain one of the central tenants of the nuclear 
enterprise.
    USSTRATCOM must ensure that U.S. nuclear forces are ready, 
sufficiently diverse, and operationally flexible to provide the 
president with the necessary range of options for their use and as a 
hedge against the technological failure of any particular delivery 
system or warhead design.
    Thus, as the number of deployed weapons decreases, USSTRATCOM will 
be a leading advocate to ensure the safety, security and reliability of 
the remaining stockpile. A strong stockpile stewardship program, 
coupled with a reinvigorated, albeit smaller, nuclear infrastructure, 
as well as sufficient weapon and platform diversity, will ensure the 
continued viability of the nuclear force to meet national requirements.
    Ms. Tauscher. Please describe the process involved in setting 
requirements for the future nuclear force structure. What is STRATCOM's 
role? What obstacles or challenges might be impeding a more specific 
definition of military requirements for the future nuclear force 
structure?
    General Chilton. Setting future nuclear force structure 
requirements starts with the President's National Security Strategy. 
From this general guidance, the Secretary of Defense and Chairman of 
the Joint Chiefs develop the national military objectives for the Armed 
Forces. USSTRATCOM roles in this process include: advising as required 
during policy and strategy development, analyzing proposed force 
structures for military sufficiency and operational suitability, 
advocating for future capabilities that support national objectives, 
and developing operational plans from which force readiness 
requirements flow.
    USSTRATCOM is one of several organizations who are responsible for 
ensuring a reliable, safe, and secure deterrent capability for the 
nation. To accomplish this, clear articulation of policy and strategy 
are needed. Without the creation of a responsive infrastructure and 
investments to sustain the human capital necessary to maintain long-
term confidence in our nuclear deterrent, military requirements will 
need to consider the technical risk and geopolitical change associated 
with an aging stockpile.
    Ms. Tauscher. Several alternatives have been proposed to sustain 
and/or modernize our nuclear weapons; these range from remanufacturing 
aging components to their original specifications to the reliable 
replacement warhead, as well as life extension programs and reuse 
concepts. From a military perspective, what are the benefits, 
challenges, and risks of these various alternatives?
    General Chilton. We must have long-term confidence in the 
reliability, safety and security of our stockpile. Warhead life-
extension programs (LEPs) provide limited opportunity to improve 
reliability, safety or security, due to design constraints associated 
with our legacy warheads. There are materials used in legacy weapons 
that pose production challenges, and we are a number of years from an 
adequate capability to re-produce many components needed to sustain our 
stockpile. Reuse concepts that use components from the existing 
stockpile in different combinations may provide options for greater 
improvements in reliability, safety, and security but require 
additional study to fully explore designs, benefits and production 
requirements. Replacement warhead designs offer the opportunity to 
introduce the most significant improvements in reliability, safety, 
security and sustainability, but require a plutonium pit manufacturing 
capability in the near-term. LEP and reuse options will also require 
some level of pit manufacturing capability in the mid-to-long-term as 
existing pits reach end-of-life. Regardless of the selected sustainment 
strategy, recapitalization of both uranium and plutonium research and 
manufacturing facilities and manpower are critical to the long-term 
stockpile sustainment of the deterrent.
    Ms. Tauscher. In the wake of the Minot-Barksdale unauthorized 
transfer in 2007 and the nosecone misshipment to Taiwan in 2006, 
several reviews of the DOD nuclear enterprise were conducted. What is 
your assessment of the corrective actions taken to date? What would be 
your top priorities among recommendations that have not yet been 
implemented?
    General Chilton. USSTRATCOM has aggressively implemented corrective 
actions to address issues identified by various reviews of the DOD 
nuclear enterprise. In response to the recommendation that ``The 
Commander, USSTRATCOM should assume responsibility for directing the 
operational effectiveness of U.S. nuclear forces and ensure the command 
is actively involved in monitoring the readiness of nuclear forces, 
including the synchronization of corrective action for deficiencies and 
improvements,'' CDR USSTRATCOM has established a Flag/General Officer 
position dedicated to directing day-to-day oversight of nuclear force 
operations and the command and control system. This officer is 
responsible to the Commander for managing nuclear readiness and 
assessment reporting, as well as oversight of the war planning system 
modernization. He is the lead for all nuclear functions across 
USSTRATCOM.
    USSTRATCOM has established a Nuclear Enterprise Council, chaired by 
the Deputy Commander, which brings together USSTRATCOM's component and 
nuclear task force Commanders to identify, assess and monitor emerging 
issues with potential to impact the nuclear mission and to make 
recommendations on nuclear matters to the Commander, USSTRATCOM.
    The USSTRATCOM Nuclear Enterprise Board is a working body dedicated 
to supporting the USSTRATCOM nuclear mission and advocacy roles. 
Specifically, this forum reviews assessments that judge compliance with 
U.S. nuclear weapons command and control, safety, and security 
directives, and oversees training and readiness assessments of 
Headquarters, USSTRATCOM; service components; task forces and Joint 
Functional Component Commands to support the USSTRATCOM mission and 
provides recommendations to the Nuclear Enterprise Council.
    USSTRATCOM has also taken action to observe all nuclear-related 
inspections, and taken steps to increase the rigor of command-level 
exercises. To that end, it would be beneficial for USSTRATCOM to 
partner with the Under Secretary of Defense for Policy and the Chairman 
of the Joint Chiefs of Staff to initiate a series of senior seminar 
wargames to enhance understanding of nuclear deterrence and to 
revalidate current strategies or develop new strategies and operational 
concepts regarding the role of nuclear weapons in deterrence.
    Ms. Tauscher. What are the military's requirements for mid-term and 
long-term PGS capabilities?
    General Chilton. USSTRATCOM requires a capability to deliver 
prompt, precise, conventional kinetic effects at intercontinental 
ranges against strategic, high-value, time-sensitive targets. A prompt 
global strike capability will provide greater flexibility for National 
leadership and is most appropriate when there is a serious threat to 
national security and time to position other forces is not available. 
We are focused on maturing technologies to field a system and close the 
capability gap as soon as possible, leveraging technology developments 
in the PGS Defense-wide account to reach a full operational capability.
    Ms. Tauscher. Can you comment on potential scenarios where a PGS 
capability would be used?
    General Chilton. Prompt global strike will be useful in any 
scenario where a rapid, non-nuclear kinetic response is either the most 
appropriate and/or most tactically feasible option to strike a target 
and conventional forces are unavailable or cannot quickly respond to 
the situation. In that capacity, a prompt global strike capability will 
provide greater flexibility to National leadership facing serious 
threats to national security when conventional forces are unavailable 
or cannot quickly respond to the situation.
    The National Academy of Sciences (NAS) 2008 report on conventional 
prompt global strike developed several credible scenarios based on 
material provided by Department of Defense officials, historical 
experience with actual or seriously contemplated strikes, and 
intelligence projections. The scenarios include the need to strike a 
ballistic missile launcher poised to launch a weapon of mass 
destruction (WMD) at the U.S. or allies; an opportunity to strike a 
gathering of terrorist leaders or a shipment of WMD during a brief 
period of vulnerability; and the need to disable an adversary's 
command-and-control capability as the leading edge of a broader combat 
operation. The NAS report is comprehensive and validates the 
conventional prompt global strike capability gap.
    Ms. Tauscher. Are current joint space programs with the 
intelligence community adequately supporting warfighter intelligence 
requirements? How might you change the investment strategy to better 
support the warfighter in theater?
    General Chilton. Today's warfighter intelligence requirements are a 
function of the fast-moving, quickly-evolving operations on the ground, 
which challenge the ability of our current joint space programs to 
respond in real-time to changing situations requiring immediate, 
concise, and comprehensive updates. Our existing ability to collect 
data is unsurpassed, yet we lack sufficient automated analysis and 
processing capabilities to push fused information within tactically 
relevant timeframes to the warfighter.
    Our strategy must focus on processing, exploitation, and 
dissemination (PED) through machine-to-machine interface that provides 
combatant commanders direct access to fused intelligence information. 
This may address future warfighter intelligence support needs. To 
accomplish this strategy, we seek to improve support to the warfighter 
in theater through our advocacy role for space capabilities and 
Combatant Commander level Senior Warfighter Forum (SWARF) review and 
validation of intelligence requirements. Additionally, we participate 
in forums that include the intelligence community in balancing 
capability requirements. Today, requirements are being met to the best 
of our existing abilities and capabilities. However, the ability to 
meet future warfighter needs could be adversely impacted by procurement 
and acquisition challenges.
    Ms. Tauscher. Please describe the potential operational concepts 
and value that you see ``operationally responsive'' space (ORS) 
solutions providing. What is your assessment of the ORS program office 
implementation and its responsiveness to warfighter needs?
    General Chilton. Potential operational concepts from ORS solutions 
involve augmentation and first-response reconstitution of the most 
critical products and services provided by our space capabilities 
today. In response to stated COCOM needs, particular emphasis within 
ORS is on rapid reconstitution and augmentation in the space mission 
areas of ISR and communications.
    The value of ORS solutions lies in providing a third supporting and 
responsive element to our National Security Space portfolio. ORS 
solutions will be designed to be complementary to the existing and 
planned space systems and to the use of purchased commercial space 
products and services that will together meet the bulk of our national 
military space needs. ORS has a mix of attributes--responsiveness, 
flexibility, affordability, and assuredness--that are unique relative 
to these other two approaches (USG systems and commercial space).
    USSTRATCOM has been actively engaged with the ORS Office for the 
past 18 months in providing Joint Force Commander urgent needs for 
space effects. In that time, we have requested ORS assessment of three 
different needs--UHF communications augmentation, Space Situational 
Awareness (SSA) of the geosynchronous belt, and a specific type of ISR 
product in support of USCENTCOM. In each case, we have been satisfied 
with the effectiveness and responsiveness of the ORS process and with 
the breadth of solution options.
    Ms. Tauscher. What is our national and military policy if our space 
assets are attacked? Do we have clear ``red lines'' or thresholds for 
attacks against our space assets? What are the merits of a declaratory 
policy that signals our intent and lays out consequences?
    General Chilton. The United States views the proliferation of anti-
satellite weapon systems with grave concern for several reasons: the 
implied threat to free use of space for peaceful use by nations, the 
collateral effects of employment of such capabilities on the safety of 
human space flight and on satellite operations.
    Regarding ``red lines,'' the National Space Policy provides general 
guidance. The United States considers space capabilities--including 
ground and space segments and the links between them--vital to its 
national interests. The United States considers its and other states' 
space systems to have the rights of unhindered passage through, and 
operations in, space without interference. Any purposeful interference 
with these assets will be interpreted as an infringement of our rights 
and considered an escalation in any conflict or crisis. The United 
States reserves the right to defend and protect its space systems with 
a wide range of options.
    We do not favor a black and white declaratory policy. There is no 
sure declaration that would cover the ``whole of Government'' scenario 
responses and we would risk our credibility if we failed to respond as 
formally stated. Historically, the U.S. has maintained a declaratory 
policy to allow senior leadership flexibility in their response to 
infringements on our stated vital interests.
    Ms. Tauscher. What are the merits of ``rules of the road'' and/or 
codes of conduct in space?
    General Chilton. Given the increasing use of space, frequent calls 
have been made for ``Rules of the Road,'' a ``Code of Conduct,'' or 
``Best Practices Guidelines'' for conducting space operations. The U.S. 
Department of State's naming convention recommends we refer to any 
proposed guidelines as ``Best Practice Guidelines.'' Proposals of this 
type may be described as providing ``a common understanding of 
acceptable or unacceptable behavior within a medium shared by all 
nations.'' The U.S. received a third draft ``EU Code of Conduct'' 
following approval by EU ministers 2008 and the Department of Defense 
is leading the U.S. Government. The United States will play a leading 
role in advancing transparency and confidence building measures (TCBMs) 
relating to space activities. Such TCBMs can help increase transparency 
regarding governmental space policies, strategies and potentially 
hazardous activities. This can help to reduce uncertainty over 
intentions and decrease the risk of misinterpretation of 
miscalculation.
    Ms. Tauscher. The head of Army SMDC has said that within three 
years, China may be able to challenge the U.S. at a ``near-peer level'' 
in space. What are STRATCOM and DOD doing to ensure that the U.S. 
military will maintain its access to space, to defend U.S. interests in 
space, and to engage in mutual threat reduction measures?
    General Chilton. As clearly articulated in the National Space 
Policy, the United States is committed to the exploration and use of 
outer space by all nations for peaceful purposes, and for the benefit 
of all humanity. While other nations expand their access to space and 
space services, we must actively maintain our own access to space and 
we must defend our interests in space. We continue to advocate for an 
improved Space Situational Awareness (SSA) capability as a key enabler 
to support access to space. In defense of our space capability, space 
protection efforts by USSTRATCOM, Air Force Space Command (AFSPC)-
National Reconnaissance Office (NRO) Space Protection Program, and 
others are being broadened to ensure adequate protection of the 
military, civil and commercial space sectors that support U.S. national 
security and ensure continued access to and freedom of action in space. 
We are also developing Operationally Responsive Space concepts and 
technologies that can be employed to rapidly supplement or reconstitute 
space forces.
    USSTRATCOM and DOD continue to advocate for spaceflight safety and 
minimization of space debris to reduce the threat to our on orbit 
assets. As USSTRATCOM assumes responsibility for space surveillance 
information sharing as currently executed under the Air Force's Pilot 
Program for Commercial and Foreign Entities (CFE), USSTRATCOM will 
share Space Situational Awareness information, as appropriate, and 
encourage responsible activities in space to mitigate risk through a 
cooperative arrangement.
    Ms. Tauscher. Is the national security space community adequately 
organized and managed to address the challenges ahead in space security 
and space acquisition?
    General Chilton. The recent report to Congress entitled ``Report to 
Congress of the Independent Assessment Panel on the Organization and 
Management of National Security Space'' (Young Panel) provided an 
assessment on this issue.
    As the single point of contact for military space, USSTRATCOM is 
responsible for planning and conducting space operations and advocating 
for space capabilities. We provide military representation to U.S. 
national agencies, commercial entities and international agencies for 
matters related to military operations and manned space flight. 
Additionally, our diverse security cooperation, space situational 
awareness, and warning and attack assessment activities necessitate a 
whole-of-government approach that highlights the need for strong 
leadership and synchronized actions both in acquisition and in 
operations governmentwide.
    Ms. Tauscher. Can you provide us an update on the new global 
missile defense concept of operations that STRATCOM is developing in 
conjunction with the other COCOMs?

    <bullet>  What are the key elements of the new CONOPS?

    <bullet>  Does it change any of STRATCOM's existing authorities 
with regard to missile defense?

    General Chilton. STRATCOM JFCC IMD is completing a final review of 
the Global Missile Defense CONOPS across DOD, prior to submission to 
the CJCS and SECDEF for review and approval. A collaborative planning 
process is designed in to address specified ballistic missile threats. 
The CONOPS will additionally serve as a framework for developing 
Geographic Combatant Commander MD plans and for integrating allied and 
coalition partner capabilities into the U.S. Missile Defense 
architecture. The CONOPs includes methods for responding to the dynamic 
situation of theater campaigns with recommendations for the allocation 
of capabilities; as well as the integration of tracking and defensive 
operations support. The Global Missile Defense CONOPS does not change 
any of USSTRATCOM's existing authorities which are set by the UCP.
    Ms. Tauscher. In 2006, the Joint Staff completed a study 
identifying the force structure needs for upper tier missile defense 
systems, i.e., Aegis BMD and THAAD. What are the force structure needs 
for other missile defense systems, such as Patriot, Ground-based 
Midcourse Defense, and sensors?
    General Chilton. Joint Integrated Air and Missile Defense 
Organization (JIAMDO) completed a Joint Capability Mix Study that 
identified upper-tier missile defense needs. A review of the process 
for determining force structure and inventory needs will take place 
within the larger strategy and policy review directed by Section 234 of 
the National Defense Authorization Act (NDAA) for Fiscal Year (FY) 
2009. This effort will occur over the next year.
    Ms. Tauscher. Last year, Congress directed the Department of 
Defense to develop an overarching plan for setting missile defense 
force structure and inventory requirements, which is due by April 15, 
2009.

    <bullet>  Can you provide the committee an update on the status of 
that report?

    <bullet>  What role will STRATCOM and other COCOMs play in this 
process?

    General Chilton. OSD (AT&L) was assigned responsibility for this 
action and STRATCOM and the other combatant commands have been fully 
involved in the plan development.
    Ms. Tauscher. In 2004, STRATCOM conducted a Military Utility 
Assessment (MUA) of the initial set of Ground-based Missile Defense 
(GMD) capabilities deployed in California and Alaska to determine their 
militarily effectiveness.

    <bullet>  How confident are you in current GMD system capabilities?

    <bullet>  Do you have any plans to conduct another MUA of the GMD 
system?

    <bullet>  If so, when do you expect to have the MUA completed?

    General Chilton. We continue to have confidence in Ground-Based 
Midcourse Defense (GMD) capability. This confidence is based on 
experience in day-to-day operations, operability demonstrations, and 
numerous flight and ground tests including the Dec 08 successful 
intercept of a threat class target with a ground-based interceptor 
launched from Vandenberg Air Force Base, California.
    USSTRATCOM conducts BMDS Military Utility Assessments (MUAs) 
annually. The most recent, dated 31 Mar 08, reflects system status as 
of 31 Dec 07.
    Ms. Tauscher. Please update us on missile defense international 
cooperation efforts. Where do you see as the greatest opportunities for 
international collaboration and integration?
    General Chilton. We are currently cooperating with international 
partners, both in real-world operations, as well as in future wargames 
and experimentation.
    Consultations and collaborations were conducted with several 
nations during the recent launch by North Korea of a TD-2 class 
missile. We have been supporting the USEUCOM deployment of an AN/TPY-2 
radar to Israel and preparations for JUNIPER COBRA 09 exercise, and 
have provided supporting expertise in planning for potential 
deployments of European interceptors and midcourse radar.
    USSTRATCOM's component, JFCC IMD, is leading an eight nation future 
missile defense policy war-game called NIMBLE TITAN 2010, in which we 
have been exploring higher-level policy issues and ramifications for 
coalition missile defense in discrete steps. We recently completed a 
Limited Objective Experiment in March 09, which was a Policy workshop 
with State and Foreign Affairs treaty and legal experts from all eight 
player nations, as well as NATO's International Military Staff. The 
wargame is scheduled for April 2010. We have also been involved in 
Joint Project OPTIC WINDMILL (JPOW), which is a Dutch-German-led 
exercise that integrates operations of missile defense units, such as 
European PATRIOTs with higher level C2 systems. JPOW continues to be an 
excellent mechanism to explore possible NATO integration with U.S. BMD 
capabilities at the tactical and operational level. These two wargames, 
as well as exercises with our Pacific allies, continue to be our most 
significant venues for international warfighter cooperation.

                                  <all>

</pre></body></html>
